<html>
<title> - VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                     VOCATIONAL REHABILITATION AND 
                           EMPLOYMENT PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2010

                               __________

                           Serial No. 111-76

                               __________

       Printed for the use of the Committee on Veterans' Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  57-020 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  









                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.







                            C O N T E N T S

                               __________

                              May 6, 2010

                                                                   Page
Vocational Rehabilitation and Employment Program.................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    21
The Honorable John Boozman, Ranking Republican Member............     2
    Prepared statement of Congressman Boozman....................    21

                               WITNESSES

U.S. Department of Veterans Affairs, Ruth A. Fanning, Director, 
  Vocational Rehabilitation and Employment Service, Veterans 
  Benefits Administration........................................     2
    Prepared statement of Ms. Fanning............................    22

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Labor, Hon. Raymond M. Jefferson, Assistant 
  Secretary, Veterans' Employment and Training Service, statement    24
American Legion, Catherine A. Trombley, Assistant Director, 
  National Economic Commission, statement........................    26
Commission on Rehabilitation Counselor Certification, Ann 
  Neulicht, Chairwoman, statement................................    27
Paralyzed Veterans of America, statement.........................    29
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Director, National Legislative Service, statement..............    31

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Ms. Ruth Fanning, Director, Vocational Rehabilitation and 
      Employment Service, Veterans Benefits Administration, U.S. 
      Department of Veterans Affairs, letter dated May 13, 2010, 
      and VA responses...........................................    34

 
            VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM

                              ----------                              


                         THURSDAY, MAY 6, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Perriello, 
Teague, Boozman, and Bilirakis.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good morning, ladies and gentlemen. 
The Committee on Veterans' Affairs, Subcommittee on Economic 
Opportunity, hearing on the Status of Vocational Rehabilitation 
and Employment (VR&E) Programs will come to order.
    During the 110th Congress, we held a series of hearings 
that focused on employment opportunities for veterans. These 
hearings included the VR&E programs that seek to assist our 
injured servicemembers and help veterans obtain employment 
after their military service. As a result of those productive 
hearings, we are able to expand the VR&E program by authorizing 
the U.S. Department of Veterans Affairs (VA) Secretary to 
provide waivers for severely injured veterans seeking to 
participate in the independent living program, increasing the 
cap for participation in the independent living program, 
requiring the VA to report to Congress on measures to assist 
veterans participating in VR&E, and authorizing a multi-year 
longitudinal study on VR&E.
    Today's hearing will allow us to learn more about what the 
Administration is doing to implement these new changes, and to 
address the concerns raised over the past year. These include 
the need to reduce case management and workload for counselors, 
conduct more outreach to qualified veterans, streamline 
information provided to the Disabled Veterans' Outreach Program 
(DVOP), Local Veterans' Employment Representatives (LVERs), and 
VA staff, and implement the new national acquisition strategy. 
I look forward to hearing from our panelists today.
    I now recognize the Ranking Member for his opening remarks.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 21.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair. The last time we met 
to discuss VR&E was to hear from VA representatives of 
companies that contracted for counseling services. At the 
hearing, VA testified that they would solicit new contracts in 
the fall of 2009. I believe those contracts are not in place 
yet and believe that VA is still negotiating vendors to close 
out the costs related to the counseling contracts terminated 
last summer. At the same time, VA proposed to put temporary 
contracts in place until the new national acquisition contracts 
were awarded, and we look forward to hearing today about VA's 
progress in both the short- and long-term counseling contracts.
    The VR&E program is possibly the most flexible of all 
Veterans Benefits Administration (VBA) benefit programs. 
Counseling staffs have great latitude on how they design a 
rehab program; and therein lies both the positives and 
negatives of the program. On the positive side, veterans are 
eligible for nearly a limitless approach to returning to the 
workforce or enrollment in independent living. On the downside, 
there are sometimes unrealistic expectations by veterans on 
what they believe their course of rehabilitation should be. In 
short, I am very concerned about the time it takes to enter 
into rehab.
    According to VA data, it takes on average about 54 days to 
determine eligibility, 118 days to develop a rehab plan, and 
200 days to find a job following completion of the customized 
rehab program. That is 372 days. That does not include the 
average of 615 days spent completing the rehab program, which 
brings the total average time in rehab to employment to 987 
days.
    Since about 90 percent of VR&E participants are enrolled in 
degree programs, I understand the effect of long-term education 
or training on the average of 615 days in rehab. But since the 
vast majority of veterans are in college, I hope that we can 
better understand why it takes 118 days to send someone to 
school. Unfortunately, the VBA Annual Benefits Report does not 
show rehab data by track, and I would encourage VA to make that 
change in the fiscal year 2010 report.
    I understand the staff has requested a post-hearing 
briefing on some of the details that Mrs. Fanning has indicated 
in her written testimony are not available. I hope the 
Department will put that briefing together expeditiously.
    And, with that, I yield back. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would now like to welcome our guest testifying before the 
Subcommittee today. Joining us is Ms. Ruth Fanning, Director of 
the Vocational Rehabilitation and Employment Service, Veterans 
Benefits Administration, U.S. Department of Veterans Affairs. I 
welcome you back to the Subcommittee. You are now recognized.

      STATEMENT OF RUTH A. FANNING, DIRECTOR, VOCATIONAL 
   REHABILITATION AND EMPLOYMENT SERVICE, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Fanning. Thank you, Madam Chair, Ranking Member, 
Members of the Subcommittee. I really appreciate you inviting 
me to appear today to discuss VA's Vocational Rehabilitation 
and Employment Program.
    Today I would like to discuss the employment services that 
VA provides to veterans, update you about the contracts, and 
discuss staffing initiatives that are supported by Congress's 
appropriation. Many of the issues that you raised in your 
invitation letter deserve further elaboration and quantitative 
analysis, and unfortunately I will need some time, as you 
noted, to completely and fully respond. I want to make sure 
that I provide you complete data and very accurate data, and I 
will be happy to come back in an expeditious manner to do that.
    VR&E's primary mission is to assist veterans with 
disabilities to prepare for, obtain, and sustain suitable 
employment. Robust services are individually tailored to each 
veteran's needs. Services begin with a comprehensive evaluation 
to help veterans with understanding their own interests, 
aptitudes, and transferrable skills.
    Next, vocational exploration focuses veterans' potential 
career goals with labor market demands, available training, and 
their individual needs and preferences. This process is 
designed to help each veteran make informed choices and, with 
the help of his or her counselor, develop a roadmap for their 
future or rehabilitation plan so that they can achieve their 
goals.
    A broad range of employment services may be provided from 
direct job placement, short-term training, to college training 
or self-employment. The goal of each and every plan is to 
maximize the veteran's transferrable skills and help them enter 
the job market at a level that is on par with his or her peer 
group and in a career position which he or she can thrive, even 
if their disability conditions progress or worsen.
    Disabled veterans and servicemembers receive VR&E services 
from two programs, the Coming Home to Work Program and the 
VetSuccess Program.
    The Coming Home to Work Program focuses on early 
intervention to help wounded warriors planning and working 
toward their civilian career goals, reducing the risk of 
homelessness, underemployment, and unsuitable employment after 
discharge from the military.
    Because many times, the first jobs that veterans get after 
discharge are transitional employment, VR&E Service also works 
very closely with the U.S. Department of Labor (DOL). As you 
know, the Department of Labor has an important program called 
REALifelines. They are there at the Transition Assistance 
Program (TAP) and Disabled Transition Assistance Program (DTAP) 
to help veterans get immediate employment. Many times, those 
first jobs are only transitional employment, and DOL works with 
us to link veterans back so that veterans can understand 
benefits available both through VR&E as well as the Post-9/11 
GI Bill and other programs so that they can prepare for their 
long-term career, ensuring long-term stability, upward 
mobility, and jobs skills and futures, commensurate with their 
skill sets and interests.
    We provide a multitude of employment assistance, including 
direct job placement assistance, which is wide-ranging, from 
developing resumes, interview skills, and specific skills 
targeted to each veteran's needs, training that ranges from 
internships to on-the-job training (OJT), certificate training, 
college training, and everything in between; self-employment 
assistance for veterans who are entrepreneurs and able to set 
up their own businesses; and outreach to government, private 
sector, and nonprofit organizations to market veterans as 
employees, to help them understand the value veterans bring as 
employees in their workplace, but also to help them understand 
the many other benefits, including tax credits, special 
employer incentives, and, for government, special hiring 
authorities.
    For those veterans whose disabilities are too severe to 
make employment feasible, voc rehab provides a wide range of 
independent living services. Those include volunteer work 
placement, public transportation--the use of that--life skills 
coaching, counseling, and a myriad of other services, again, 
that are tailored to each person's needs.
    To the extent possible, these services are integrated into 
employment plans. But, when necessary, these are stand-alone 
programs, with the ultimate goal of helping each individual be 
as independent as possible in their home and community, and 
then be able to consider employment, whatever that employment 
may mean for that person, whether it is a volunteer job, a 
part-time job, or a full-time competitive placement.
    Next, I would like to talk a little bit about the 
contracts. As mentioned, over the past year, VR&E has been 
working very closely with VA's Office of Acquisition, 
Logistics, and Construction to develop and solicit new 
performance-based contracts. This solicitation was issued and 
has closed, and proposals currently are being evaluated. We 
have over 30 staff from around the country essentially locked 
down, in the Center for Acquisition Innovation-Frederick 
working very closely with General Counsel and with the 
acquisition staff to conduct past performance and technical 
evaluations. This process is near ending. We expect that it 
will be done within the next week, and then the actual pricing 
evaluation will commence and awards of the contracts are 
expected in the fall, in either August or September.
    VR&E service is also working with the Office of Resource 
Management to develop automated invoicing, referral, and 
additional tracking tools, and this has been in progress for 
several months, and we expect will be in place when the 
contract is awarded and when performance commences.
    Finally, to talk a little bit about staffing and 
initiatives. As you know, we have over 1,100 employees around 
the country, and they provide extensive services that are 
tailored to each veteran's needs. These services include 
comprehensive employment and independent living services, 
outreach assistance to the Coming Home to Work Program, and 
important support from VA to veterans who are in other VA 
education programs.
    For example, the VetSuccess on Campus project is a new 
project. It began as a pilot at the University of South 
Florida; and this project is specifically geared to serve Post-
9/11 GI Bill veterans on college campuses, to help them 
overcome any barriers they may encounter in college, stay in 
school, finish school, and then be able to enter into suitable 
careers. We have expanded this pilot to two additional campuses 
at San Diego State and Cleveland State, and we are in the 
addition of expanding to four more campuses currently.
    In order to adapt to shifts in workload due to deployments 
of Reservists and National Guard units, quickly meet the 
specialized needs of the most seriously disabled veterans, 
provide community-based services to veterans in remote areas, 
fill the gap when we have staffing shortages so that timely 
services are not affected, VR&E has also supported, as you 
know, contract funding. And during fiscal year 2010 budget 
formulation, an additional $8 million in General Operating 
Expenses (GOE) was allocated to support those, and an 
additional $8.3 million in 2011 has been requested.
    VR&E Service is also working very hard to develop new 
solutions that will further enhance employment and independent 
living services. Among these, we are equipping staff through 
the development of desktop training, testing methods that will 
support face-to-face counseling using secure and user-friendly 
technology, conducting a top-to-bottom business process 
reengineering (BPR) initiative to streamline and simplify 
service delivery. This is designed to ease entry into the 
program for veterans, and also simplify and streamline our 
process so that our core counseling staff are primarily focused 
on one-on-one service to veterans.
    Now, more than ever, the employment needs of veterans are 
an urgent priority for VA. VA is showing leadership through our 
involvement in implementing the President's government-wide 
hiring initiative, and VR&E is pivotal to the success of this 
initiative, actively working with government agencies and 
departments to increase employment of veterans with 
disabilities. VR&E is leading through the development of a 
national job board on VA's VetSuccess.gov Web site with 
continual expansion of this site underway. We are actively 
collaborating with businesses in all sectors who identify 
employment opportunities, particularly with those sectors with 
deficits of qualified applicants, and we are working 
strategically to understand the future job trends to assist 
veterans to match their career plans with those future job 
market needs.
    Finally, VR&E is working to use effective tools and 
innovations to meet the needs of transitioning servicemembers, 
reaching out early, developing effective contracts, maximizing 
important partnerships with Department of Labor and other 
government and nongovernment partners, and leveraging 
technology for training, case management, and veteran 
employment tools.
    Madam Chairwoman and Members of the Subcommittee, this 
concludes my statement. I would be pleased to answer any 
questions you may have.
    Ms. Herseth Sandlin. Thank you, Ms. Fanning.
    [The prepared statement of Ms. Fanning appears on p. 22.]
    Ms. Herseth Sandlin. I will first recognize Mr. Perriello 
for questions.
    Mr. Perriello. Thank you very much, Madam Chair.
    Thank you, Ms. Fanning. You know, I think we are all seeing 
a lot of interest in the VR&E Program, particularly in the job 
environment, where we are seeing the rather stark unemployment 
of returning veterans and a lot of interest. So I guess part of 
what I am trying to understand off the top is if we see that by 
increasing the per capita independent living cap, that we have 
increased demand in many ways for the program because of both 
the number of vets returning and the job environment, but 
reducing budget for the fiscal year, what is it that gives us 
the confidence to think that this is not going to lead a 
reduction in a program that really, right now, needs to be 
seeing a boost, in my mind?
    Ms. Fanning. I think you are referring to the reduction of 
9 full-time equivalents (FTEs) in the budget, which, really, 
were not a reduction from the VR&E Program, but of overall 
management support. And the reduction for overall management 
support for VBA was spread across all programs. I am not an 
Office of Resolution Management (ORM) expert, but that is what 
I can tell you. And if you need more detail, I would be happy 
to provide that.
    What we were provided, though, was an additional $8 million 
in GOE funding to supplement contracting, which is a big help 
and does help us respond to those increases in workload and in 
a strategic manner so that if there is a large deployment in, 
for example, Ohio because a unit returns, we can respond to 
that increase.
    Mr. Perriello. So it is your feeling that $8.3 million from 
GOE will essentially cover whatever difference you have in the 
1 percent decrease?
    Ms. Fanning. I am continuing to watch it. And part of my 
job is to be aware of the trends, to always make the case for 
additional resources when that is needed. So at this point, I 
am pleased that we have the additional support, and I will 
continue to watch the workload trends and advocate for any 
additional needs are identical.
    Mr. Perriello. Will that possibly mean a shift from in-
house employees to more contracting, and would that have any 
effect potentially on the quality of services?
    Ms. Fanning. In the short term, with an increase of GOE 
funds it could possibly mean an increase in contracting funds. 
But we also have the flexibility during execution to look at 
using some of those funds for staffing, and that is something 
that I will definitely be working with leadership on.
    Mr. Perriello. Well, I will certainly be interested in 
looking at that in terms of the immediate budget impacts and 
the needs that are there right now, but also looking at medium-
term capacity within the program as well.
    One of the things that I think we are trying to track as 
well is some of the dynamics between this program and the new 
GI Bill, where we are seeing a tremendous amount of interest, 
which is a great thing. Are you seeing some people opting for 
the Post-9/11 GI Bill because of the housing stipend that is 
there or other dynamics? What are you seeing in terms of the 
relationship between those two programs?
    Ms. Fanning. We have developed a way to track any decrease 
in our program because of a transition, specifically to the new 
GI Bill.
    Initially, we saw very little change. We had estimated that 
up to 13,000 veterans could switch immediately from voc rehab 
over to the new GI Bill, and that didn't occur. I don't have 
the exact number, I would be glad to provide that, but I can 
tell you it was less than 1,000 veterans.
    Now, just over the last quarter, we are seeing a slight 
uptick of veterans moving over to the GI Bill and just a slight 
decrease in our applicants. One-quarter's worth of data is not 
a lot to base trend analysis on, particularly since we have 
been seeing an upward trend due to outreach and the current 
conflict and, of course, compensation's production, and their 
hiring of staff. So we will continue to monitor that.
    I am obviously concerned. I think veterans need to make 
informed choices about what benefit is most beneficial for each 
of them, but I am concerned that a veteran may select a program 
based only on the stipend when their living expense is of a 
great concern to them, rather than the more comprehensive 
services of VR&E, if those are really what they need.
    [The VA subsequently provided the following information:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    

    Mr. Perriello. And my last question, very quickly. You were 
talking about that the first jobs are often the transitional 
jobs going through this program. Can you give us an example 
that those that tend to be available the most often as those 
transitional jobs or types of jobs we are seeing people move 
into?
    Ms. Fanning. Well, the types of jobs I think are about as 
big as the labor market, because at TAP sessions, many 
employers actually are there meeting with veterans. Job fairs 
occur. DOL is very active in helping veterans who want to get a 
job immediately, get into a job that hopefully is closely 
aligned with what their military occupational specialty was or 
what their previous work experience was.
    Oftentimes, the first job, as we all know, isn't the right 
job or the best job. And we do know that veterans want to--they 
tell us, they want to get a job immediately after discharge 
just to normalize themselves back into civilian life. What our 
concern is, is that a veteran, while they need that job to 
transition back into the civilian market, doesn't get into a 
job that is not compatible with their disability conditions, 
doesn't get into a job that really has a future, that they are 
looped back to our program so that we can assist them if 
training is needed to augment their transferrable skills, if 
their transferrable skills are really no longer relevant 
because of their disability conditions to help them get new 
skills, and to help them catch up with their peer group. 
Because of their service, they may be a few years behind their 
peer group's career development. And I think they deserve that 
assistance to get into appropriate careers that they can grow 
into.
    So that is the concern. And I hope that answers your 
question.
    Mr. Perriello. Thank you. We certainly want to keep an eye 
on this program at this point. Thank you so much.
    Ms. Herseth Sandlin. Thank you, Mr. Perriello.
    Mr. Boozman.
    Mr. Boozman. Let's go ahead, if it is okay with you, Madam 
Chair, and go ahead with Mr. Teague.
    Mr. Teague. Well, thank you. And thank you, Madam 
Chairwoman, for having this meeting, and Ranking Member.
    Ms. Fanning, I want to thank you for coming also. I think 
it is very important what your organization does to help our 
men and women as they come back, to work them from the disabled 
veterans or disabled soldiers from the military to civilian 
life and what they have to do. But, you know, one of the 
things, earlier in your testimony you were saying there are 
five different programs that you work the troops to. When they 
do, are they limited to one of those five when they get started 
in that? Or can they pick and choose different things from 
each, and maybe participate in three or all five or something, 
using part of each program?
    Ms. Fanning. Thank you, Mr. Teague, for that question.
    Our program is very fluid, and it is really tailored to 
each person's needs. So, as an example, one thing that I 
mentioned in my testimony is that, in many cases, independent 
living services are integrated into a training program. So a 
veteran may be pursuing college, but also may need some 
assistance, because of a severe disability, in having full 
access to the community, learning to use public transportation, 
having his or her home modified so they can get in and out 
easily, and those kinds of things. So, as much as possible, we 
integrate whatever services are needed together.
    And, yes, a veteran can come in, and may come in 
initially--let me use an example of a Guard or Reservist who 
comes in initially wanting just help getting back to their 
previous employer and perhaps needs ergonomic adaptation to 
their work site, maybe just a chair because of a lower-back 
injury, and we assist with that. The veteran returns to the 
employer and finds that, during the time that they were 
deployed, maybe a year, 2 years, the job has moved on, and they 
need some additional training in order to stay competitive and 
be eligible for promotions. We can provide additional training 
that they may need.
    Perhaps a veteran comes back and we are providing direct 
job placement. But even though he or she received excellent 
training in the military--and often we see this with 
information technology (IT) skills--they may not have the 
certifications that the civilian market recognizes that will 
allow them to get the best jobs and move up in their 
occupation. So even though we may be helping them get back into 
the IT market, we also may be providing short-term training for 
those certifications so that they maximize their marketability.
    Mr. Teague. And, also, you know the 12-year, the delimiting 
date for the VR&E. Is that long enough, due to these 
considerations that they do come in behind their peer group? Do 
you think that time needs to be expanded and additional years 
added to that?
    Ms. Fanning. Well, one of the good things about the way the 
program is designed by Congress is that a veteran can apply at 
any time regardless of whether the 12-year delimiting date has 
passed or not. Eligibility isn't based on the delimiting date, 
but entitlement may be. So if a veteran comes in and applies 
for a voc rehab, even if the delimiting date has passed, we may 
find him or her eligible, and they will be able to sit down 
with a counselor to evaluate their needs.
    If they have a serious employment handicap, meaning that 
they have serious issues and need significant services to 
overcome them, we can waive the 12-year eligibility period and 
provide services. We can extend the 48 months of entitlement as 
well.
    So the program is designed in a very generous manner that 
allows us to serve seriously disabled veterans beyond that 
delimiting period.
    Mr. Teague. Another question just about efficiency and 
cost. You know there is going to be a 1 percent cut, but there 
is also an extra $8 million out there. So I was just curious, 
what is the average caseload for the caseworker? And, you know, 
if we are reasonably staffed, then why are we hiring 
contractors to do those jobs?
    Ms. Fanning. We have used contractors for a number of 
years, as long as I remember, since my first exposure to the 
voc rehab program was as a subcontractor before I worked for 
the VA. And so that has always been a tool that has been used. 
It allows VR&E to be agile and to respond to changes and 
staffing needs. Because VR&E is a small program and we are 
community-based, there may be an office that has only one 
counselor in a remote area, the use of contractors, if there is 
turnover of that counselor, allows those veterans to continue 
to be served while the person is still behind.
    So I think, contracting will always be there as a need and 
VR&E will continue to need it, and use it.
    I would, if you wouldn't mind, ask you to repeat the first 
part of your question, because I don't think I fully answered.
    Mr. Teague. I was concerned about the average caseload, for 
the caseworker.
    Ms. Fanning. Thank you. I apologize. I started remembering 
my old days and I got distracted.
    The average caseload right now is around 1 to 145 for each 
counselor. And that is in all statuses, from applicant through 
veterans who are ready to be rehabilitated.
    Mr. Teague. Thank you. Thank you for your service, and 
thanks for answering those questions.
    Ms. Fanning. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Teague.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. You mentioned efforts 
to streamline and simplify service delivery. Can you give us 
some examples of perhaps what you are thinking in that area?
    Ms. Fanning. Yes, I can. I would be delighted to.
    We are doing a number of things right now to really take a 
hard look at the program and see how we can continually improve 
it. One thing that we are doing, that goes to Mr. Teague's 
question, is we are currently doing a work measurement study; 
and that is basically a time and motion study. We have a 
contractor assisting us to look at what each other professional 
staff is doing, how much time does it take, so that we have 
analytical data that we can use to determine what the 
appropriate counselor-to-veteran caseload should be. You know, 
we all have our guesses or our estimates based on experience. 
And I do have experience in the field. But I would like to know 
from more of a scientific method.
    We have just engaged in an end-to-end look at the program 
with contract support, first identifying our as-is process; 
what are we doing. And, in looking at where the opportunities 
for us to go in using advanced technology or simple business 
reprocessing, and streamline the program. That same contractor 
then developed a to-be state, and presented us with several 
recommendations from very simple improvements that we could 
make, all the way through to the paperless environment, which 
is where we ultimately want to be and we think will be a huge 
help.
    As an example, something simple like using an automated 
reminder system for appointments. I can admit to you that if I 
don't get a reminder appointment the night before my dentist 
appointment, I am probably not going to be there the next day. 
With a busy schedule, and I think veterans have extremely busy 
schedules. Many of them are job searching or already looking.
    We want to also, with our appointment scheduling, develop a 
system so that veterans could go online and select their own 
appointment time that is convenient for them, similar to going 
on and choosing your own airline seat. These are available in 
choosing what is best for them.
    So from that very simple kind of process all the way, like 
I said, to paperless and everything in between. We are looking 
at all the forms, the processes we use, and looking at how we 
can simplify the paperwork that counselors are required to do 
so that we can get the same quality of work and ensure that the 
same level of service is provided to veterans, but perhaps not 
require so much paperwork, make sure we have enough, but that 
we are not over-requiring of the counselors.
    Another initiative that we are currently engaged in is a 
pilot into regional offices, testing technology for remote 
counseling. And this is really something that we expect to be 
successful because of the success the Veterans Health 
Administration (VHA) has had with their telehealth program. So 
we know that technology can be used effectively and safely; but 
what we are really interested in is, since this is a counseling 
relationship, how does it affect the counseling relationship? 
Are there portions of the relationship that really are best 
face-to-face, one-on-one? Perhaps the initial appointments. And 
then, are there portions that really the technology would work 
just as effectively? And when veterans are a couple hundred 
miles away, it would keep them from driving to our office, and 
it would use the staff's time more effectively by not sending 
them 200 miles just to meet with one veteran. They could see 
many more veterans.
    We are doing a lot of other things, but those are some 
examples.
    Mr. Boozman. Very good. And I think what we would like to 
do is perhaps have staff follow up on that and see how we can 
be helpful in that regard.
    Do you have any idea about the kind of a ballpark figure, 
about the PAYGO cost to allow VR&E participants to use chapter 
33 just as current law allows them to use chapter 30 while 
receiving VR&E services?
    Ms. Fanning. I don't have that cost with me. It is----
    Mr. Boozman. Is that a bunch of people? Is that a huge 
population or a small population?
    Ms. Fanning. When the bill was first passed and we looked 
at it, it was around 13,000 potentially. I haven't looked at 
what the population is in the recent months. You know, I looked 
at that data at that time just so that I could be prepared of 
what the potential impact may be. I am not a budget expert, but 
it is something that I have looked at. And from my thoughts, 
there wouldn't be a significant cost other than FTE, because 
the veteran will be using services from one program or the 
other. And chapter 33 obviously now has a larger price tag 
associated.
    So with what we call the crossover program with chapter 30, 
which allows the veteran to receive the full scope of chapter 
31 case management and assistance and support while electing 
the monetary benefits of chapter 30, the only additional cost 
is the staff who are doing the case management.
    Mr. Boozman. Again, I think that is something else that 
perhaps we will follow up on and see if we can get some numbers 
and things. So thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. That is a very 
helpful response in light of the fact of your experience and 
looking at the additional costs associated with chapter 30, and 
obviously some proposals on the table, as it relates to the new 
benefit.
    Let me just follow up from some of what Mr. Boozman 
mentioned in his opening statement as well as questions that 
Mr. Perriello and Mr. Teague asked. The Independent Budget for 
fiscal year 2011 makes the assertion that VA has a limited 
number of VR&E counselors and case managers to handle a growing 
caseload. Now, you had mentioned that it is about 1 to 145. And 
does that include contractors?
    Ms. Fanning. No. That is VA staff only.
    Ms. Herseth Sandlin. VA staff only. Do you know what it is 
with the contractors?
    Ms. Fanning. With contractors, it is hard to define. 
Because contractors may have numerous employees working for 
them. And in some cases, when they are working with 
subcontractors--as I can say in my own experience, when I was 
self-employed as a rehab counselor, VA work was only one thing 
that I was doing. I was also working in a number of other 
sectors. So it is harder to quantify, because they may be only 
working one case a month, they may be full-time. We can try to 
equate dollars to people, and I would be glad to do that math 
to give you an estimate.
    Ms. Herseth Sandlin. I think it would be good to have a 
measure. I think there are some legitimate questions being 
raised about the use of the dollars and the results that we are 
getting. Any time we can look at something and try to craft 
some measure, I think it would be helpful. If you could do 
that, and we can talk more, just so we have a better sense of 
the veterans being served by the contractors and how that 
compares with some of the concerns we have had about the 
workload for the VA staff.
    Is that 1 to 145, has that been consistent over the last 
number of years? Did you see a significant jump early in the 
last decade? Do you have the trends that show us what the 
workload has been, average workload, on an annual basis?
    Ms. Fanning. I would have to go back in time to tell you 
over the last decade; during the time that I have been here in 
Washington, which has been about 2\1/2\ years now.
    Ms. Herseth Sandlin. But do we have that?
    Ms. Fanning. It has been a slight increase. It was as low 
as 1 to 119 a couple years ago. So we have seen an increase of 
about 20 or so cases per counselor.
    [The VA subsequently provided the following information:]

      L  During the course of the NAS-II contracts, 29,976 
referrals were made to prime contractors. The number of 
referrals varies by regional office depending on services 
needed. The prime contractor was responsible for assigning work 
and tracking the cases referred to each subcontractor. Prime 
contractors assigned work to subcontractors based on their own 
criteria and type of service needed. Contracted services 
included the following service groups: Initial Evaluation, Case 
Management, Employment Services, and Ed/Voc Counseling.
      L  VA counselors continued to perform case-management 
functions while the subcontractor performed the assigned work. 
The VA counselor is ultimately responsible for all decisions 
pertaining to individual cases. The contract restricted any one 
contractor to a VA caseload of no more than 125 cases.

    Ms. Herseth Sandlin. Does that, in any way, mirror some of 
what the Ranking Member mentioned in terms of the time to 
actually receive services in terms of the amount of time for 
the application? We are going into--how many days did you say--
900 days from the time of application to completion of the 
program?
    Ms. Fanning. The actual time of the program really depends 
more on what track the veteran is in. And we know that the 
majority of veterans who come to VR&E are looking for services 
to prepare them for a career. And since they are going through 
TAP, and DOL is so active in the process, many veterans who 
already are employable or who think they are may never come and 
apply for voc rehab. They may come back to us later when they 
realize that their disability isn't compatible with that job. 
And that is one of the reasons we are working so closely with 
the Department of Labor.
    Ms. Herseth Sandlin. I guess the question is, there does 
seem to be some concern among veterans about the average time 
it takes once they submit an application to start receiving 
services. I am wondering if that tracks with the uptick that 
you have seen.
    Ms. Fanning. We have seen a slight uptick in terms of our 
goal for making an entitlement decision. We are within 10 
percent of the goal. We are not currently at the goal. We are 
about 10 percent over. The same is the case with the day to 
develop a rehabilitation plan. And there is overlap with those 
two cycles. They are not linear, that the entitlement ends and 
then the evaluation portion starts. There is some overlap in 
those two cycles.
    But there is a slight uptick. We are still--within 10 
percent, which is not bad. It is something that we can get 
down; and we are actively working with the Office of Field 
Operations and with our staff to try to reduce that timeliness. 
And I can tell you, that is a part of my reasoning behind 
launching into the BPR and looking for ways to streamline. I 
think that some of the paperwork could be reduced, and that 
could make the timeliness a little more effective.
    I would like, though, to also mention that the time to 
develop a rehabilitation plan--which currently we are allowing 
105 days, so just 3\1/2\ months, approximately. That there is 
always going to be a need for some time on average for that 
process. We are working with veterans to look at the labor 
market, to understand their skills and aptitudes, to understand 
their interests, to understand the transferrable skills that 
they bring to the table and how they can build on those, to 
understand all the options that they have for their futures, 
and then to make some decisions.
    That is a process. And so we don't want to be prescriptive 
and tell a veteran when he comes in the door what job he or she 
should seek. We want them to go through that process and make 
informed decisions that are best for them. So there always will 
be some time in that process because it is a counseling 
process.
    Now, saying that, do I think it could be shortened? I do. 
And that is something that I am very committed to finding every 
way possible that we can to make it shorter. Because if a 
veteran comes to us who is not employed and needs work, I don't 
want him to wait 3 months, I don't want him to wait 3 weeks if 
we can avoid that. We want to get services started as quickly 
as we can.
    Ms. Herseth Sandlin. I appreciate that. And you had 
responded to a question from Mr. Perriello about the 
transitional jobs, and your response was very impressive in 
terms of recognizing that that oftentimes is not a good fit, 
that transitional job, and the importance of keeping the 
veteran sort of looped back into your program.
    Do you track that somehow? I mean, is the transitional job 
separate from the rehabilitation plan and the career 
development stage? Is this just what--they go through TAP, 
maybe your office, your program helps identify that 
transitional job. Are they in the transitional job then during 
the time that they are working to develop a rehabilitation 
plan?
    Ms. Fanning. A good majority of veterans in voc rehab are 
in transitional jobs. Most of them, even if they are only 
supporting themselves--and a good majority of them have 
families, they need to work even if they are pursuing voc 
rehab. As generous as the VR&E program is, the stipend that we 
have is not sufficient to pay rent and buy food and pay all the 
expenses for daily life. So most veterans are working at least 
part-time, some in work-study programs, some in transitional 
full-time jobs.
    Obviously, from a rehab counselor perspective, some kind of 
work that is continuing to build their resume is a good thing. 
But we don't want--ideally, we don't want to see someone having 
to work full-time while they are in college. It extends the 
period of time before they can really get into that right 
career.
    So a happy medium would be good. But we recognize and 
understand that veterans need transitional jobs. If we are 
helping them find them or we are working with DOL in that 
process, what we are focused on is, let's make sure that it is 
a job that is aligned with the ultimate career goal so that it 
is a job that will make them more marketable when they are 
ready to enter that career.
    Ms. Herseth Sandlin. Let me ask one more question before 
recognizing Mr. Bilirakis. When and how does the VR&E program 
determine or declare as such that a veteran has been 
rehabilitated?
    Ms. Fanning. We track suitable employment, first of all. So 
many veterans actually enter suitable employment while they are 
still in training, and that is the ideal scenario. They are 
hired as a co-op and they are completing college, and also in a 
job leading toward the job that they really want.
    A lot of veterans get jobs in their last semester of 
college when they are ready to graduate. So as soon as they 
enter suitable employment, we start tracking it in our data 
system. We don't declare a veteran rehabilitated until they 
have completed the goals of their program and we can determine 
that they are suitably employed and that the employment is 
stable, and for at least a 60-day period.
    So a veteran may graduate on May 1, get a job on June 1. 
Maybe they have some initial bumps in the road and we learn 
that they need some adaptation or some kind of accommodation on 
the job. We assist with that. Once that stability has been 
gained, then 60 days beyond that point we can close the case as 
rehabilitated.
    Ms. Herseth Sandlin. Thank you. Mr. Bilirakis, do you have 
any questions?
    Mr. Bilirakis. Thank you, Madam Chair. I have a couple 
questions.
    Currently, the date for completing the VR&E is set to 12 
years following the date of rating for a service-connected 
disability. For some veterans, their disability progresses over 
time. And I have a two-part question.
    First, is it accurate to say that a disabled veteran who 
received his rating years ago who wanted to participate in the 
VRE simply does not have that option? And, second, would it 
also be accurate to say that a 20-year-old Afghan or Iraq war 
veteran discharged with a disability today would not be able to 
participate in the VR&E when he is 32 even though the 
disability has progressed?
    And then, as a follow-up, what is the VA's position on 
eliminating the VR&E's 12-year delimiting date to allow 
veterans access to the VR&E on a needs basis when necessary?
    Ms. Fanning. Thank you, sir, for those questions. First of 
all, as you mentioned, the 12-year delimiting date, that clock 
starts on the date of first notification of any disability 
rating by Compensation and Pension (C&P). That opens the door 
for vocational rehabilitation services. Veterans, however, can 
apply at any time during their life regardless if that 12-year 
delimiting period has expired.
    Eligibility is based solely on having at least a 10-percent 
disability rating; or, if a rating hasn't been established, a 
20-percent memorandum rating.
    So veterans are able to come in, sit down with a counselor, 
discuss their needs. And if the counselor finds that the 
veteran has a serious employment handicap, meaning that because 
their disability is so significant, that they need services to 
be rehabilitated to meet their goals, whether that is 
employment, or we find that they are not feasible for 
employment and independent living service needs are identified, 
we can waive the 12-year delimiting period. So, in both 
scenarios that you described----
    Mr. Bilirakis. How often do you do that, though? How often 
do you waive it?
    Ms. Fanning. I am going to talk off the top of my head now, 
and I can give you a specific ratio in my follow-up. But about 
half of the veterans we are serving have serious employment 
handicaps.
    Now, that doesn't mean that all of those individuals needed 
that period, that 12-year period extended. It just means that 
we find a high number of veterans who come in to us for 
services to have significant needs. If a veteran only has an 
employment handicap, which means they do have a disability that 
is related to their service-connected disability, they do have 
impairments related to their service-connected disability that, 
in some way, impact their work, their ability to obtain a job 
or maintain a job, but it doesn't rise to the level of a 
serious disability, meaning that they need significant services 
and that 12-year period has passed, those are the cases when we 
can't provide services, and, unfortunately, would have to find 
the veteran not to be entitled.
    Mr. Bilirakis. So the VA's position is that they would not, 
at this time, eliminate the 12-year delimiting date?
    Ms. Fanning. We haven't evaluated that issue. And I would 
be happy to do so. Basic rehab law, I mean, aside from the law 
that mandates the voc rehab and employment program, is to 
ensure that the most seriously disabled individuals are served 
first. And the way that chapter 31 has been developed by 
Congress, that intent is certainly met. Because regardless of 
the time that a veteran comes back in the continuum of his 
disability--and, as you know, and you mentioned, disability can 
be a continuum. A veteran with diabetes, as an example, may be 
quite stable early in his or her life, and as they age and 
complications arise, they can be quite significant. And so 
later in life they really may need assistance. And so the way 
title 38 and chapter 31 has been designed under title 38, it 
allows us to serve those most seriously disabled individuals. 
What it doesn't allow is for those veterans who have an 
employment handicap, for us to serve them if the delimiting 
date has passed.
    Mr. Bilirakis. Thank you very much. Thank you, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Bilirakis.
    Ms. Fanning, perhaps you could get us, in addition to some 
of the other information that we have requested, that you could 
get us in terms of the caseload for contractors vis-a-vis those 
for your VA staff, and kind of the trend of that average 
caseload over the past decade, could you also get us 
information about how many veterans have been allowed into the 
VR&E program who passed the 12-year delimiting period?
    Ms. Fanning. Yes, ma'am.
    [The VA subsequently provided the following information:]

    L    Currently, 18,867 Veterans are past the eligibility 
termination period of 12 years. These Veterans are in various 
stages of the program, including some who are still in 
applicant status. Veterans in applicant and evaluation statuses 
may not have yet been rendered an entitlement determination. 
Other veterans in this population may have been found entitled 
during their 12-year eligibility period with an employment 
handicap and later found to have a serious employment handicap 
based on additional evidence submitted or a worsening of their 
disabilities.

    Ms. Herseth Sandlin. I just have a couple of questions on 
the independent living program. My office has received reports 
from veterans who have experienced wait times exceeding 1,000 
days for approval of their independent living program. Are you 
aware of those concerns?
    Ms. Fanning. I have seen concerns from one--raised from one 
particular individual. I can tell you that the time frames for 
developing any kind of plan. As I mentioned, the average is 
within 10 percent of our goal of 105 days. So those certainly 
would be significant outliers. I mean, I can go back and run 
our database to see if we have any case that is an outlier in 
that manner and report back to you.
    Ms. Herseth Sandlin. Specifically, in the independent 
living program?
    Ms. Fanning. Yes.
    Ms. Herseth Sandlin. I would appreciate that. I will submit 
to your office a list of specific veterans and their concerns 
regarding the independent living program. Not all of them face 
the 1,000 day or more concern about approval of the program.
    Ms. Fanning. That would be helpful.
    Ms. Herseth Sandlin. I would then appreciate if you and 
your staff could sort of get us some up-to-date information 
responding to the concerns of that list of veterans.
    I guess, if you are aware of the one particular case, I 
guess I am wondering what sort of management or oversight the 
Central Office provides to the regional office as it relates to 
management of the independent living program. Because I think 
the application procedure has proven to be exceedingly onerous 
with repeated requests for further documentation, according to 
some of the reports I am getting for veterans.
    Ms. Fanning. I am aware that one particular veteran is 
raising these concerns. As I said, I would have to research to 
see if any particular case actually is at that time limit, or 
if it is a perception based on a rehabilitation plan being 
developed and then ongoing services taking additional time. 
And, from a veteran's perspective, I can see that, until 
everything that is expected has been completed, that they may 
consider that clock ticking and may be looking at it from a 
time perspective differently than we are. So it would be 
helpful for me to look at the cases, and I appreciate you 
providing me the opportunity.
    [The VA followed up with Chairwoman Herseth Sandlin's 
office regarding this issue.]
    Ms. Herseth Sandlin. I guess my question is, what oversight 
are you providing to the regional offices as it relates to 
streamlining the process, so perhaps there don't have to be 
these further requests of additional documentation? We could 
maybe make the assumption that the veteran has fallen short in 
providing some of the documentation, but sometimes that is 
directly related to the guidance and the efficiency and 
effectiveness of the guidance they are getting from someone 
working out of a regional office.
    Ms. Fanning. The independent living program receives a lot 
of attention. And independent living, as you know, is--it is a 
separate track, as we described the five tracks, but it is 
actually a subset of our program. VR&E is an employment 
program. And until we actually determine that a veteran is not 
feasible for employment, at that point, we then proceed to look 
at solely independent living needs.
    Now, as I mentioned earlier, we can also look at 
independent living needs as a part of any program. But I think 
you are talking about solely independent living needs at this 
point. So that it is going to take a little longer because it 
is adding an additional step to the process. We determine a 
veteran is not feasible. The next step is, this veteran can't 
work, but are they independent? Do they need any services to 
maximize their independence?
    We have a process in place that, first of all, the 
counselor evaluates their independent living needs. And it is a 
pretty structured process that has been put in place in 
response to some of the concerns that you are raising over the 
last few years, prior to my arrival, but not very much prior.
    In addition, if the needs that are identified are 
significant, an in-home visit is done. And that in-home visit 
may even include bringing in experts such as an occupational 
therapist or a rehabilitation engineer. Not in every case, 
because obviously if the veteran's disability is a mental 
health issue, we may not be looking at adapting their home. We 
may be looking at more functional issues that would help them 
be more successful at home.
    Ms. Fanning. The process is overseen in Central Office. We 
actually have an independent living coordinator who works 
really closely as a consultant to the field, and I have doubled 
that staff so she now has another person working with her. We 
are doing--since I have arrived, we are doing yearly ``train 
the trainer'' sessions with the field offices specifically 
about independent living, and we are currently reviewing all of 
the office's use of independent living and preparing to do some 
site visits to offices either that are overusing or underusing 
independent living. And I say that with the caveat that until 
we go and talk to them, we don't know if they are overusing or 
underusing. We are simply looking at data, which, as you know, 
only tells you which questions to ask. It doesn't tell you the 
answers. You always have to dig deeper. So we are preparing to 
do that.
    And at the field level, if a veteran who is found 
infeasible and the counselor determines they don't need 
independent living, the voc rehab manager is required to review 
and concur on that decision. That policy is in place to make 
sure that counselors truly consider these needs.
    In addition, any veteran for whom an independent living 
plan is developed, the VRE manager is required to review and 
approve that plan. And it is because it is a smaller number of 
cases that there is additional oversight in place. It is to 
avoid just the kind of issues that you are raising.
    So we are concerned. We are doing a lot of training and a 
lot of oversight, and we are certainly open to any feedback 
that we receive to strengthen the program further. And I am 
very interested in doing that.
    Ms. Herseth Sandlin. I appreciate that, Ms. Fanning, and I 
do think it will be important to get some of the information 
back from you as well as the updates from some of the 
information we will provide that my office has received.
    Your explanation as to why it may take longer is 
understandable, but at the same time, if there are ways through 
the oversight that you have put in place, maybe the double of 
the staffing to assist the person in the Central Office, to 
find a way to streamline this process, to identify some of the 
needs earlier, it is just hard for me to imagine the situation 
with a severely injured veteran having to wait 3 years.
    Again, I know you are aware of a particular case there, but 
let us just see if you can do the assessment of the outstanding 
applications so we can address some of the concerns working 
together that we are aware of. I would appreciate that.
    Ms. Fanning. And if you would, I will give you an example 
of a couple of things that we are doing currently.
    We take this very seriously and we are working very hard.
    One thing that we are doing currently is we have 
established a work group jointly with the Loan Guaranty Program 
under Mark Bologna's direction. And this work group is designed 
to develop procedures and policies so that we can leverage the 
expertise of the special adaptive housing experts. Our voc 
rehab counselors are counselors. They are not construction 
experts. And when construction is required as a part of an 
independent living program, that presents unique challenges in 
terms of them understanding if the bids they receive are really 
good, do they really fully meet the needs of the veteran, when 
the work was ready to be paid for, was it delivered 
appropriately.
    So Mr. Bologna and his staff are working with us so that we 
can leverage that expertise and ensure that we are getting the 
appropriate value for taxpayers' funds, but more importantly, 
that the veteran is receiving everything that they need. That 
is an example of one of the initiatives.
    A second is we have done a full analysis of our waiver 
requests for small construction needs, and any kind of 
construction at this point has to be approved at the Central 
Office level. We have looked at all of the trends, and we have 
seen those under the $25,000 range are usually very 
straightforward--perhaps adding grab bars to showers, ramps in 
the front of a home--and they are usually well documented. It 
is very rare when we have to intervene. So we have policy 
currently going through concurrence that will push that 
approval down to the regional office director's level and 
simplify some of that process.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman, did you have any final questions?
    Mr. Boozman. Just a couple.
    The VRE doesn't have a role in determining eligibility of 
100-percent individual employment rating. It seems like, 
though, they would be in a position to kind of weigh in on 
that.
    Ms. Fanning. The Rating Veterans Service Representative is 
required, if there is a voc rehab file, to pull the file and 
look at the evaluation that voc rehab has done as a part of 
their rating decision. So in that way, we really do have a 
role.
    Mr. Boozman. How many independent living applicants have 
entered the program in 2009? And did VA delay any portion of 
the processing, including approval, in order to remain within 
the annual statutory cap?
    Ms. Fanning. In 2009--and bear with me for a moment. I have 
the data; I just need to find it.
    In 2009, we had just over 1,800 first time independent 
living plans developed. This year thus far as of March, we are 
trending similarly to last year, and even with that trend, I 
think we will still be within the 2,600 cap if we stay on track 
with where we are now.
    Mr. Boozman. So the answer then is you didn't have to delay 
any?
    Ms. Fanning. No.
    Mr. Boozman. Thank you, Madam Chair, and thank you for 
being here, Ms. Fanning.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Just one final question, Ms. Fanning: The electronic case 
management information system, do you feel that that needs to 
be revamped to meet VR&E's specific needs to respond to some of 
the veterans' concerns about how that is working for them?
    Ms. Fanning. Are you referring to our Corporate WINRS 
system?
    Ms. Herseth Sandlin. Yes.
    Ms. Fanning. We are actively working on that. That is a 
part of our BPR. We are working also with all of the other 
initiatives, including Veteran's Relationship Management and 
Veterans Benefits Management System, to ensure all programs are 
integrated.
    Ultimately, where we want to be is with an E-benefits 
portal so that veterans can come in and have some self-service 
capabilities similar to what we would do with our banking or 
other kinds of checking on status of a deposit or a check. That 
is where we want to end up.
    We are working on our Corporate WINRS Program with the goal 
of ultimately being paperless, but we think that in the short 
term, we can do some modifications to start down that road.
    Ms. Herseth Sandlin. ``Short term'' meaning?
    Ms. Fanning. Within the next year or so.
    As you know, the budget cycle is a little far out.
    Ms. Herseth Sandlin. Do you feel you currently have the 
resources to get the modern IT support you think you need to 
start down this path?
    Ms. Fanning. We are currently engaged in a process that we 
are funded for this year where we are moving off of Benefits 
Delivery Network. We are moving our payment process, our master 
record, and our eligibility determination into the corporate 
environment. That really sets the stage for us to then continue 
moving aggressively forward. And we have initiatives in place, 
and we are currently working on the VetSuccess.gov Web site, as 
I said, continuing to work toward more of an E-portal and case 
management portal.
    We want our counselors to be able to go out into the field 
instead of carrying a box of locked files with them, carrying a 
laptop that has a wireless connection. So if a veteran has a 
question, they have access to the record in a secure way, they 
can document as they go. They are using their time efficiently, 
and ultimately serving veterans as effectively as possible.
    Ms. Herseth Sandlin. Well, I want to thank you for the 
timely update on the VR&E Program, for your dedication, your 
hard work in assisting our Nation's veterans and those that 
seek the services that you oversee. And I do hope that you will 
extend our gratitude to your entire staff, and I know that they 
work hard. As you say, we would like to provide them the modern 
IT support that would make their jobs easier as you are also 
testing some of the technologies that may be beneficial for 
your staff and the veterans as well.
    We look forward to continuing to work with you and work 
with our colleagues on the Committee to address the unique 
needs of our most severely injured veterans and all veterans 
seeking reintegration back into our communities.
    Thank you again, Ms. Fanning.
    The hearing stands adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity

    I would like to state that the Veterans of Foreign Wars of the 
United States and the Commission on Rehabilitation Counselor 
Certification have asked to submit written statements for the hearing 
record. If there is no objection, I ask for unanimous consent that 
their statements be entered for the record. Hearing no objection, so 
entered.
    During the 110th Congress, we held a series of hearings that 
focused on employment opportunities for veterans. These hearings 
included the VR&E programs that seek to assist our injured 
servicemembers and help veterans obtain employment after their military 
service. As a result of those productive hearings, we were able to 
expand the VR&E programs by:

    <bullet>  Authorizing the VA Secretary to provide waivers for 
severely injured veterans seeking to participate in the Independent 
Living Program;
    <bullet>  Increasing the cap for participation in the Independent 
Living Program;
    <bullet>  Requiring the VA to report to Congress on the measures to 
assist veterans participating in VR&E; and
    <bullet>  Authorizing a multi-year longitudinal study on VR&E.

    Today's hearing will allow us to learn more about what the 
Administration is doing to implement these new changes and to address 
the concerns raised over the past year. These include the need to:

    <bullet>  Reduce case management and workload for counselors;
    <bullet>  Conduct more outreach to qualified veterans;
    <bullet>  Streamline information provided to DVOP, LVER and VA 
staff; and
    <bullet>  Implement the new National Acquisition Strategy.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member, 
                 Subcommittee on Economic Opportunities

    Good afternoon.

    The last time we met to discuss VR&E was to hear from VA and 
representatives of companies that contracted for counseling services. 
At that hearing, Ms. Fanning testified that VA would, ``. . . solicit 
new contracts in the Fall of 2009.'' I believe those contracts are not 
yet in place and I believe VA is still negotiating with vendors to 
close out costs related to the counseling contracts terminated last 
summer. At the same time, VA proposed to put temporary contracts in 
place until the new national acquisition contracts were awarded. I look 
forward to hearing from Ms. Fanning on the Department's progress in 
both the short and long term counseling contracts.
    The VR&E program is possibly the most flexible of all VBA benefit 
programs. Counseling staffs have great latitude on how they design a 
rehabilitation program and therein lies both the positives and 
negatives of the program. On the positive side, veterans are eligible 
for a nearly limitless approach to returning to the workforce or 
enrollment in Independent Living. On the down side, there are sometimes 
unrealistic expectations by veterans on what they believe should be 
their course of rehabilitation. In short, I am very concerned about the 
time it takes to enter into rehabilitation.
    According to VA data, it takes on average, about 54 days to 
determine eligibility, 118 days to develop a rehabilitation plan, and 
200 days to find a job following completion of the customized 
rehabilitation program. That's 372 days. That does not include the 
average of 615 days spent completing the rehabilitation program which 
brings the total average time in rehabilitation to employment to 987 
days. Since about 90 percent of VR&E participants are enrolled in 
degree programs, I understand the effect of long term education or 
training on the average of 615 days in rehabilitation. But since the 
vast majority of veterans are in college, I hope she will explain why 
it take 118 days to send someone to school. Unfortunately, the VBA 
annual benefits report does not show rehabilitation data by track and I 
encourage Ms. Fanning and her bosses to make that change in the FY 2010 
report.
    I understand the staff has requested a post hearing briefing on 
some details that Ms. Fanning has indicated in her written testimony 
are not available. I hope the Department will put that briefing 
together expeditiously. I yield back.

                                 <F-dash>
            Prepared Statement of Ruth A. Fanning, Director,
  Vocational Rehabilitation and Employment Service, Veterans Benefits 
          Administration, U.S. Department of Veterans Affairs

    Madam Chairwoman, Ranking Member, and Members of the Subcommittee, 
thank you for inviting me to appear before you today to discuss VA's 
Vocational Rehabilitation and Employment (VR&E) program. In your 
invitation, you noted that a growing number of returning Veterans are 
entering the job market seeking employment, and that some face 
obstacles securing employment, particularly those who desire to work 
directly after service. Today, I will discuss the employment services 
VA provides to Veterans, update you on the status of new VetSuccess 
contracts, and discuss the VR&E staffing and initiatives supported by 
Congress' appropriations. Many of the issues raised in your invitation 
letter deserve further elaboration and quantitative analysis; 
unfortunately, the process of retrieving, analyzing, and validating 
these data could not be accomplished with appropriate due care while 
still also providing you with a timely testimony. I will provide 
complete responses for the record following the hearing.
Overview of Veteran Employment Services
    VR&E's primary mission is to assist Veterans with disabilities that 
are service related to prepare for and obtain sustainable employment. 
Robust services are individually tailored to each Veteran's needs. 
Services begin with a comprehensive evaluation to help Veterans with 
understanding their interests, aptitudes, and transferable skills. 
Next, vocational exploration focuses Veterans' potential career goals 
with labor market demands, available training, and individual needs and 
preferences. This process helps each Veteran make informed choices and, 
with the help of his or her counselor, develop a roadmap--a 
rehabilitation plan--to achieve those goals. A broad range of 
employment services may be provided, from direct placement services and 
short-term training to college training or self-employment. The goal of 
every plan is to maximize the Veteran's transferable skills, match 
interests and skill sets with labor market demands, ensure 
compatibility of the job with disability issues--using adaptive 
technology whenever possible--and help the Veteran enter the job market 
at a level on par with his or her peer group and in a career position 
in which he or she can thrive, even if disability conditions progress 
or worsen.
    Disabled Veterans and Servicemembers receive VR&E services from two 
programs: Coming Home to Work (CHTW) and VetSuccess. The VR&E Coming 
Home to Work program provides career and adjustment counseling during 
and immediately following transition from active duty. This program 
focuses on early intervention to help wounded warriors begin planning 
and working toward their civilian career goals, reducing the risk of 
homelessness, underemployment, or unsuitable employment after discharge 
from the military. During transition, many Servicemembers and Veterans 
want immediate employment to ease their transition back into civilian 
life. VR&E partners with the Department of Defense (DoD) to help 
Servicemembers obtain internships through the Nonpaid Work Experience 
Program (NPWE), helping to build the Veterans' resumes and often 
leading to competitive employment. In addition, VR&E partners with the 
Department of Labor (DOL), whose Veterans' Employment and Training 
Service's (VETS) REALifelines program assists with immediate 
employment. Because many times these first jobs are ``transitional 
employment,'' VR&E Service is also working closely with DOL to ensure 
that their programs link Veterans with VR&E or the Post-9/11 GI Bill 
services if needed to prepare for career employment. VR&E further 
collaborates with DOL/VETS by ``hosting'' a DOL/VETS funded state 
employee (Disabled Veterans Outreach Program specialist) at our 
Regional offices and other points of entry. VA's focus is to provide 
services that will allow Veterans to accept the first ``transitional 
job'' while also planning for their long-term career, ensuring long-
term stability and upward mobility commensurate with each individual's 
skill sets and interests.
    Specific employment assistance includes:

    <bullet>  Direct job placement services, from development of a 
resume and interviewing skills to connections to employers offering 
employment that is a match for the Veteran's skill sets;
    <bullet>  Training ranging from internships, on-the-job apprentice 
programs, certificate training to supplement existing skills, 
vocational training, and college training;
    <bullet>  Self-employment assistance, to include evaluating and 
refining business plans, training in managing independent businesses, 
consultation services with small business experts, and support of some 
start-up costs for the most seriously disabled Veterans;
    <bullet>  Outreach to government, private sector, non-profit, and 
faith-based organizations to market Veteran employment at the 
individual and corporate level, including education about special 
hiring authorities, special employer incentives, tax credit programs, 
and the positive benefits of hiring Veterans;
    <bullet>  A specialized Web site, VetSuccess.gov, that includes job 
postings specifically targeted for Veteran applicants and access to a 
larger job board of over 500,000 job listings. The Web site also 
includes links to job resources, resume development tools, and search 
capabilities for Veterans and employers using the site.

    Of equal importance, VR&E's VetSuccess program helps very seriously 
injured Veterans to live as independently as possible at home and in 
their communities. For those Veterans whose disabilities are too severe 
to make employment feasible, VR&E provides a wide range of independent 
living services, including volunteer work placement, public 
transportation, life-skills coaching, counseling, and other services. 
To the extent possible, these services are integrated into employment 
plans. When necessary, VR&E provides independent living services with 
the ultimate goal of assisting each Veteran, to the extent possible, to 
enter into an employment plan that is a match for him or her--whether 
volunteer, part-time, supported employment, or competitive full-time 
employment.
Status of New VA VetSuccess Contracts
    Over the past year, VR&E Service has worked in close collaboration 
with VA's Office of Acquisition, Logistics, and Construction (OALC) to 
develop and solicit a new performance-based contract. The solicitation 
was issued, and proposals were received and are currently being 
evaluated. Award of new contracts is anticipated in August or September 
2010, with performance by new contractors commencing 90 days post-
award. In preparation for award and contract administration, VR&E and 
OALC will provide formal training for the Contracting Officer Technical 
Representatives, Contract Specialists, and Ordering Officers, and 
conduct a formal kick-off and training session for successful vendors. 
VR&E Service is also working with the Office of Resource Management to 
develop automated invoice, referral, and tracking tools, anticipated 
for completion prior to contract award.
VR&E Staffing and Initiatives
    VR&E's current staff of over 1,100 employees around the country 
provides extensive outreach services through the Disabled Transition 
Assistance Program (DTAP) and Coming Home to Work programs. These 
services include comprehensive employment and independent living 
services, and important support to participants in VA education 
programs. Program participants may receive career counseling and help 
to overcome barriers and support completion of their education 
programs. Through the VetSuccess on Campus pilot program, the full 
scope of benefits assistance and referrals is available for Post-9/11 
GI Bill and other Veteran-students. The VetSuccess on Campus program 
began as a pilot at the University of South Florida and was recently 
expanded to San Diego State and Cleveland State Universities. VA plans 
near-term expansion to additional sites and has identified potential 
sites for consideration. Next steps include confirming available space 
on campus and negotiating MOUs with the schools.
    In order to adapt to shifts in workloads due to deployments of 
Reserve and National Guard units, quickly meet the specialized needs of 
the most seriously disabled Veterans, provide community-based services 
to Veterans in remote areas, and fill the gap when staffing shortages 
occur so that timely services are not affected, VR&E is also supported 
with contract funding. During the FY 2010 budget formulation, an 
additional $8 million in General Operating Expenses (GOE) funding was 
allocated to support the VR&E program. In FY 2011, an additional $8.3 
million in GOE funding has been requested to support services for 
Veterans in the VR&E program.
    VR&E Service is also working very hard to develop new solutions 
that will further enhance employment and independent living services. 
Among these, we are equipping staff through the development of desk-top 
training; developing testing methods that support face-to-face 
counseling using secure and user-friendly technology; and conducting a 
top-to-bottom business process reengineering initiative to streamline 
and simplify service delivery--easing entry into, and use of, benefits 
for Veterans and focusing VR&E staff on core service delivery tasks.
Conclusion
    Now, more than ever, the employment needs of Veterans are an urgent 
priority to VA. VA is showing leadership through our involvement in 
implementing the President's government-wide hiring initiative, serving 
not only as one of the leaders with the Office of Personnel Management 
and DoD in developing this initiative, but also as a leader in the 
hiring of Veteran employees. VR&E is pivotal to the success of this 
initiative, actively working with government agencies and departments 
to increase employment of Veterans with disabilities. VR&E is leading 
through the development of a national job board on VA's VetSuccess.gov 
Web site, with continual expansion of this site underway. VR&E is 
actively collaborating with businesses in all sectors to identify 
employment opportunities, particularly with those sectors with deficits 
of qualified applicants. VR&E is working to strategically understand 
future job trends to assist Veterans to match their career plans with 
future job-market demands. Finally, VR&E is working to use effective 
tools and innovations to meet the needs of transitioning 
Servicemembers--reaching out early, developing effective contracts, 
maximizing important partnerships with DOL and other government and 
non-government partners, and leveraging technology for training, case 
management, and Veteran employment tools.
    Madam Chairwoman and Members of the Subcommittee, this concludes my 
statement. I would be pleased to answer any questions you may have.

                                 <F-dash>
      Statement of Hon. Raymond M. Jefferson, Assistant Secretary,
  Veterans' Employment and Training Service, U.S. Department of Labor

    Madam Chair, Ranking Member Boozman, and Members of the 
Subcommittee:
    Thank you for your invitation to provide testimony about the 
collaborative efforts and partnership between the Department of Labor's 
(DOL) Veterans' Employment and Training Service (VETS) and the 
Department of Veterans Affairs' (VA) Office of Vocational 
Rehabilitation and Employment Service (VR&E).
    As your invitation noted, a growing number of returning Veterans 
are entering the job market seeking employment, and some face obstacles 
securing employment, particularly those who desire to work directly 
after service. DOL is firmly committed to helping Veterans and their 
families find opportunities for upward mobility.
    VETS and VA are working closely to meet Veterans' employment needs 
and fulfill President Obama's promise of restoring our Nation's sacred 
trust with Veterans. DOL has a strong relationship with Secretary 
Shinseki, Deputy Secretary Scott Gould and VR&E Director Ruth Fanning.
VETS
    VETS proudly serves Veterans and transitioning Servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. Our programs are an integral part of Secretary 
Solis's vision of ``Good Jobs for Everyone.''
    We have four main programs at VETS that serve Secretary Solis' goal 
of providing ``Good Jobs for Everyone'' and that we are working to 
improve:

    <bullet>  The Jobs for Veterans State Grants;
    <bullet>  The Transition Assistance Program Employment Workshops;
    <bullet>  The Homeless Veterans' Reintegration Program; and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act.
VETS collaboration with VA's VR&E

    Currently, VETS is collaborating with VR&E services by working in 
partnership with the States to post Disabled Veterans' Outreach Program 
(DVOP) specialists in all 57 VA Regional Offices or alternative VR&E 
sites. This will improve access to VETS' services by VR&E participants.
    VETS' primary interface with the VR&E program is through the 
workforce investment system. Accordingly, VETS continues to work in 
partnership with its Jobs for Veterans State Grant recipients on behalf 
of VR&E job-ready Veterans. These Veterans are referred to and 
registered with the State workforce agencies for intensive employment 
services. As a result, the State grantees for VETS and VR&E are 
coordinating with the interagency initiatives underway at the national 
level. Most of these VETS grantees and their VR&E counterparts have 
updated their local written agreements.
    VETS also partners with VR&E through our Recovery and Employment 
Assistance Lifelines (REALifelines) program. REALifelines provides one-
on-one services to our wounded warriors to ease their transition into 
civilian employment. We have special REALifelines coordinators 
stationed at military treatment facilities on a full-time basis who 
provide services to wounded, ill, or injured personnel. VR&E has also 
been an active participant in DOL's America's Heroes at Work 
Initiative, which focuses on engaging businesses in the employment of 
returning Servicemembers with post-traumatic stress disorders (PTSD) 
and traumatic brain injuries (TBI).
    Additionally, VETS and VR&E jointly established a new position, 
Intensive Service Coordinator (ISC), for the Disabled Veterans' 
Outreach Program specialist who is stationed at a VR&E location. Unlike 
mainstream clients who receive employment and training services through 
One-Stop Career Centers, the ISC position was created to provide a 
specialist to work directly with VR&E clients and to coordinate with 
the VR&E case management team. The ISC provides Labor Market 
Information (LMI) to ensure that the disabled Veteran is placed in a 
training program that meets the employment demand in their location of 
residence. In addition to the customized service and LMI, VETS 
participates in the development of the individual's rehabilitation 
plan.
Memorandum of Agreement (MOA) between DOL and VA and the Joint Working 
        Groups
    The partnership between DOL and VA is solidified by a Memorandum of 
Agreement between the two agencies, first signed in 1996. This 
partnership enables disabled Veterans to receive the full complement of 
services available from both agencies without overlap or delays. In 
addition, VETS and VA are continually looking for opportunities to 
collaborate in offering better services for employment opportunities 
and placements for service-connected disabled Veterans who participate 
in VR&E.
    In 2005, VETS and VR&E updated the Memorandum of Agreement 
outlining the process--and responsibility--to work together to maximize 
the services both agencies provide to disabled Veterans and their 
dependents.
Ensuring successful job placement and adjustment to employment for 
        disabled Veterans
    VETS and VR&E are collaborating to develop a tool that will track 
quarterly data and annual fiscal year data to assure quality and 
consistency of our programs. The data will include:

    <bullet>  Number of job-ready Veterans referred from VR&E to local 
employment offices for intensive employment assistance;
    <bullet>  Number and registration rates of Veterans referred to the 
local employment offices for services;
    <bullet>  Number and entered employment rates of Veterans who 
registered with local employment offices; and
    <bullet>  Average entry hourly wage for those who entered 
employment.

    As previously mentioned, the VETS Intensive Service Coordinator now 
exists to ensure that the disabled Veteran is referred to the Local 
Veterans Employment Representative or Disabled Veterans' Outreach 
Program specialist in his/her geographic area to work with that Veteran 
to find suitable employment.
    We are working to ensure that Veterans have access to the programs 
of their choice. Later this month, we are meeting to determine how VETS 
can support VR&E's VetSuccess program to promote greater employment of 
that program's participants.
    We will continue to support VR&E in their redesign of the Disabled 
Transition Assistance Program, through a contract recently entered with 
a Service Disabled Veteran Owned Small Business. We applaud VR&E in 
this effort. At VETS, we are also modernizing and transforming the 
Transition Assistance Program (TAP). We have reviewed external 
assessments and stakeholder feedback regarding TAP's performance and 
ways to improve the program. In an effort to increase program 
effectiveness and improve participant outcomes, we are working to 
redesign the workshops to make them more relevant and engaging for 
participants.
Conclusion
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemen and women, and by their families. One way that we can honor 
their sacrifices is by providing them with the best possible services 
and programs our Nation has to offer. Secretary Solis and I believe 
strongly that Veterans deserve the chance to find good jobs and VETS 
works closely with the Department of Defense and the Department of 
Veterans Affairs to help them get there.
    VETS will focus on serving disabled Veterans who participate in the 
VR&E program. Our goal is to provide every VR&E client with the needed 
employment services and support for a timely transition into suitable 
career employment.
    VETS holds VA's VR&E service in high regard. We look forward to 
continuing our close and dynamic relationship for the betterment of our 
Nation's Veterans. Thank you for the opportunity to provide this 
testimony.

                                 <F-dash>
        Statement of Catherine A. Trombley, Assistant Director, 
             National Economic Commission, American Legion

    Madame Chairwoman, Ranking Member and distinguished Members of the 
Subcommittee, thank you for the opportunity to submit the views of The 
American Legion regarding the ``Status of Vocational Rehabilitation and 
Employment Programs.''
    Since the 1940s, VA has provided vocational rehabilitation 
assistance to veterans with disabilities incurred during military 
service. The Veterans Rehabilitation and Education Amendments of 1980, 
Public Law (PL) 96-466, changed the emphasis of services from training, 
aimed at improving the employability of disabled veterans, to helping 
veterans obtain and maintain suitable employment and achieve maximum 
independence in daily living. Vocational Rehabilitation and Employment 
(VR&E) program employment goals are accomplished through training and 
rehabilitation programs authorized under Chapter 31 of title 38, U.S. 
Code. Title 38 provides a 12-year period of eligibility after the 
veteran is discharged or first notified of a service-connected 
disability rating. To be entitled to VR&E services, veterans must have 
at least a 20 percent service connected disability rating and an 
employment handicap or less than a 20 percent disability and a serious 
employment handicap.
    The VR&E program's mission is to help qualified, service-disabled 
veterans achieve independence in daily living and, to the maximum 
extent feasible, obtain and maintain suitable employment--goals which 
The American Legion fully supports. As a nation at war, there continues 
to be an increasing need for VR&E services to assist Operations Iraqi 
Freedom and Enduring Freedom veterans in reintegrating into independent 
living, achieving the highest possible quality of life, and securing 
meaningful employment.
    The success of the rehabilitation of our disabled veterans is 
determined by the coordinated efforts of every federal agency 
(Department of Defense, VA, Department of Labor, Office of Personnel 
Management, Department of Housing and Urban Development, etc.) involved 
in the seamless transition from the battlefield to the civilian 
workplace. Timely access to quality health care services, favorable 
physical rehabilitation, vocational training, and job placement play a 
critical role in the ``seamless transition'' of each veteran, as well 
as his or her family.
    Administration of VR&E and its programs is a responsibility of the 
Veterans Benefits Administration (VBA). Providing effective employment 
programs through VR&E must become a priority. Until recently, VR&E's 
primary focus has been providing veterans with skills training, rather 
than providing assistance in obtaining meaningful employment. Clearly, 
any employability plan that doesn't achieve the ultimate objective--a 
job where the veteran succeeds despite his or her disabilities--is 
falling short of actually helping those veterans seeking assistance in 
transitioning into the civilian workforce and of VR&E's mission. 
Eligible veterans who are enrolled into the education and training 
programs receive a monthly allowance to offset living costs associated 
with attending training while not working. Yet, those veterans enrolled 
in VR&E for direct employment assistance do not receive a monthly 
living stipend. However, they attend workshops to learn how to write 
resumes, work on interview skills and attend job fairs, all of which 
take time--372 days on average, according to VA data; 54 days to 
enroll, 118 days to develop a rehabilitation plan and 200 days to find 
a job after the plan has been executed. Anyone who has started a new 
career knows looking for a job can be a full-time job in itself. Not 
providing a living stipend for veterans seeking direct employment 
services through VR&E could lead those veterans to a different track 
and they may miss out on meaningful employment. The American Legion 
strongly urges Congress and VA leadership to approve a living stipend 
to all who are enrolled in VR&E regardless of whether their 
rehabilitation plan calls for training or direct employment.
    Another problem hindering the effectiveness of the VR&E program, as 
cited in reports by the Government Accountability Office (GAO), is 
exceptionally high workloads for the limited number of staff. This 
hinders the staff's ability to effectively assist individual veterans 
with identifying employment opportunities. A recent GAO report noted 
that 54 percent of all 57 regional offices stated they have fewer 
counselors than they need and 40 percent said they have fewer 
employment coordinators than they need. As in the past, achieving ample 
staffing in VR&E is a major concern, especially with recent numbers 
stating that each VA counselor maintains a case load of 145 veterans. 
With 145 cases to manage, counselors simply do not have the time it 
takes to teach veterans how to apply to Federal jobs or to build the 
community connections to help veterans find jobs.
    The jobless rate for OIF/OEF veterans between the ages of 18 to 24 
was 21.1 percent in 2009. Furthermore, the Department of Labor reports 
one in three veterans under 24 is presently unemployed--and the 
unemployment rate for Iraq and Afghanistan veterans has jumped to 14.7 
percent, half again as high as the national unemployment rate of 9.7 
percent. Without sufficient staffing, the success of VR&E programs 
becomes extremely challenging, particularly due to the returning 
veterans from Iraq and Afghanistan and their more complex cases. Hiring 
more staff to meet the demands of these veterans is simply a must. The 
American Legion completely supports fully staffing VR&E with more 
vocational rehabilitation counselors and employment coordinators to 
lower case loads so these counselors/coordinators can provide more 
individualized attention to veterans throughout training and assist 
them in finding suitable employment.
    Vocational counseling also plays a vital role in identifying 
barriers to employment and matching veterans' transferable job skills 
with those career opportunities available for fully qualified 
candidates. Becoming fully qualified becomes the next logical objective 
toward successful transition. Veterans' preference should play a large 
role in vocational counseling as well. The Federal Government has 
scores of employment opportunities that educated, well-trained, and 
motivated veterans can fill, given a fair and equitable chance to 
compete. Working together, all Federal agencies should identify those 
vocational fields, especially those with high turnover rates, suitable 
for VR&E applicants. Career fields like information technology, claims 
adjudications, and debt collection offer employment opportunities for 
career-oriented applicants that also create career opportunities 
outside the Federal Government.
                               CONCLUSION
    No VA mission is more important at this time in our history--given 
the Nation's involvement in two wars and the uncertain economic 
situation--than enabling America's veterans to have a seamless 
transition from military service to the civilian workforce.
    The success of the VR&E program will significantly be measured by 
these veterans' ability to obtain gainful employment and achieve a high 
quality of life. To meet America's obligation to these service-
connected veterans, VA leadership must continue to focus on marked 
improvements in case management, vocational counseling, and most 
importantly, job placement.
    VR&E's services are more critical than ever based upon more than 
33,000 servicemembers being injured in Iraq and Afghanistan since 2001. 
The American Legion strongly supports VR&E programs and is committed to 
working with VA and other Federal agencies to ensure America's wounded 
veterans are provided with the highest level of service and employment 
assistance.
    Again, thank you for the opportunity to submit the opinion of The 
American Legion on this issue.

                                 <F-dash>
                Statement of Ann Neulicht, Chairwoman, 
          Commission on Rehabilitation Counselor Certification

    Madam Chairwoman and Members of the Subcommittee, thank you for 
inviting me to present testimony related to the Vocational 
Rehabilitation and Employment (VR&E) Programs. We appreciate the 
opportunity to provide this written testimony, as the Commission on 
Rehabilitation Counselor Certification (CRCC) was unable to make 
arrangements to provide verbal testimony. My testimony will highlight 
the continued need for qualified services through the VR&E programs, 
including the VR&E National Acquisition Strategy (NAS) contracts, and 
how Certified Rehabilitation Counselors (CRCs) are uniquely qualified 
to provide services to veterans.
CRCC Supports the Benefits of the VR&E Programs
    CRCC's mission is to promote quality rehabilitation counseling 
services to persons with disabilities through the certification of 
rehabilitation counselors and to provide leadership in advocating for 
the rehabilitation counseling profession. Veterans who have a service-
connected disability are a growing population of individuals who 
receive essential career and independent living services from VR&E 
programs. They need services from those who are uniquely qualified to 
provide effective vocational rehabilitation services so that veterans 
may transition from military service to suitable employment or, for 
those who with severe disabilities who are unable to work, to 
independent living. We understand the VR&E to be conscientious about 
continually assessing its programs and services to ensure that veterans 
are receiving quality services from the point of initial evaluation to 
the end goal of suitable employment or independent living.
    CRCs are uniquely qualified to provide the full range of services 
provided by VR&E including:

    <bullet>  comprehensive rehabilitation evaluation to determine 
abilities, skills, interests, and needs
    <bullet>  vocational counseling and rehabilitation planning
    <bullet>  employment services such as job-seeking skills, resume 
development, and other work readiness assistance
    <bullet>  assistance finding and keeping a job, including the use 
of special employer incentives
    <bullet>  if needed, training such as On the Job Training (OJT), 
apprenticeships, and non-paid work experiences
    <bullet>  if needed, post-secondary training at a college, 
vocational, technical or business school
    <bullet>  supportive rehabilitation services including case 
management, counseling, and referral
    <bullet>  independent living services
Overview of the CRC Certification Program

    Incorporated in 1974, CRCC is the world's largest rehabilitation 
counseling organization, currently certifying over 16,500 CRCs. Our CRC 
certification program has maintained long-standing national 
accreditation by the National Commission for Certifying Agencies, which 
demonstrates that our certification program meets the rigors of the 
best practice standards established by the industry. The majority of 
our applicants have a master's degree specifically in rehabilitation 
counseling with current eligibility criteria requiring a minimum of a 
master's degree in counseling including key course work in both 
rehabilitation/disability and counseling content along with 
experiential requirements. In addition to meeting eligibility criteria 
that include course work and experiential requirements, individuals 
must pass our national Certified Rehabilitation Counselor Examination 
(CRCE). The exam tests knowledge with regard to both rehabilitation/
disability and counseling. Individuals must achieve a passing score on 
both sections of the exam in order to pass the exam as a whole. Those 
who achieve CRC certification demonstrate that they have met the 
national standard for rehabilitation counseling and have the unique 
skills to assist individuals with disabilities as they seek re-
employment with a previous employer, rapid access to employment through 
job-readiness preparation, self-employment, employment via long-term 
training and education, and services to maximize independence in daily 
living for those unable to work. Once certified, individuals must 
demonstrate continued skill development through a program of continuing 
education or may take the CRCE, which is continually updated based on 
empirical research. CRCs must also abide by the Code of Professional 
Ethics for Rehabilitation Counselors, which mandates ethical behavior 
and supports best practices.
VR&E's National Acquisition Strategy Contracts
    Although our direct knowledge of the success of the NAS contracts 
is limited, CRCC has anecdotal information that supports a need for 
restructuring the program. We believe that an essential component of an 
outsourcing arrangement such as the NAS contracts is to identify and 
select appropriate individuals who are capable of providing quality 
services in a timely manner. We believe that CRCs are those uniquely 
qualified individuals who have the requisite skills and knowledge in 
order to provide quality career and independent living services. We 
understand, however, that requirements for those providing contract 
services were not aligned with the specific education and course work 
that highly qualified and skilled CRCs possess. Whether as part of the 
NAS contracts or for primary staff, we would urge the VA to maintain 
high standards by aligning hiring standards to be inclusive of CRCs who 
are specifically trained in working with individuals with disabilities, 
such as the veteran population.
Funding and Improvements
    Whether VR&E directly hires or contracts work, in order for 
qualified individuals to be interested in employment opportunities 
through the VA, the compensation must be adequate in order to compete 
with other employment opportunities. The VA is viewed as an employer of 
choice for many of our CRCs due to the fact that the VR&E programs 
provide them with the ability to provide the full scope of 
rehabilitation counseling services for which they are trained. 
Continuing to offer favorable pay and benefits as well as supporting 
their continuing education needs will allow VR&E to remain an employer 
of choice. Again, anecdotally, we understand that contractors were 
being offered less than desirable rates for contract work under the NAS 
contracts. VR&E must be funded in a manner that will allow them to 
support competitive wages for contractors, whether directly or 
indirectly through choice of vendors. Another opportunity for 
improvement that has been expressed anecdotally is with respect to the 
streamlining of paperwork so as to eliminate duplicative reporting and 
tracking. Doing so will allow employees and contractors to focus their 
efforts on providing quality and timely services resulting in optimal 
outcomes for veterans and for VR&E.
Concluding Remarks
    Given the increasing demand for services for the many deserving 
veterans, CRCC fully supports the continuing need for the VR&E 
programs, their continued development and funding, and the advancement 
of hiring standards to recognize CRCs in both paid staff positions and 
for contracted work where rehabilitation counseling services are 
provided to individuals with disabilities. The population of veterans 
is not only increasing but the severity of disabilities is also 
increasing. It is important that quality services be provided by those 
who are uniquely qualified to provide them--Certified Rehabilitation 
Counselors.
    Madam Chairwoman, this concludes my written testimony. I would be 
pleased to respond to questions from you or any of the other Members of 
the Subcommittee.

                                 <F-dash>
               Statement of Paralyzed Veterans of America

    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, Paralyzed Veterans of America (PVA) would like to 
thank you for the opportunity to submit testimony concerning the issue 
of the Department of Veterans' Affairs (VA) Vocational Rehabilitation 
and Employment Program (VR&E). The Global War on Terror has produced a 
large number of men and women that have served the country and have 
returned to civilian life with one or more physical and or 
psychological wounds that creates barriers to entry, or reentry into 
the civilian workforce. PVA would like to thank Congress and this 
Subcommittee for all the support they put forth to help these disabled 
veterans and all veterans make this transition successful.
    The purpose of the VR&E program as authorized under Chapter 31 of 
Title 38 U.S.C. is to provide comprehensive services to address the 
employment barriers of service-connected disabled veterans in an effort 
to achieve maximum independence in daily living, and to obtain and 
maintain gainful employment. VR&E also provides services to severely 
disabled veterans with a goal towards helping them achieve the highest 
quality of life possible, including future employment when feasible.
    Currently, to be eligible for VR&E, the veteran must have been 
discharged under circumstances other than dishonorable; have a 
disability rating or memo rating of 10 percent or more, which was 
incurred in, or aggravated by such service, and be in need of 
vocational rehabilitation to overcome employment barriers caused by 
such service-connected disability. VR&E provides for 48 months of 
entitlement and the program may be utilized within 12 years from the 
date of initial VA disability rating notification, with an exception 
for those with a serious employment handicap.
    During the process of testing, evaluating, and preparation of the 
rehabilitation plan for each qualified veteran, the VR&E program often 
uses contracted suppliers of these services to supplement their work 
load. The VA claim's that this is the only possible option available to 
address the needs of veterans in remote geographic areas and provide 
some of the support functions such as administrating testing 
procedures. In an effort to address and administrate the contracting 
process the VA developed the National Acquisition Strategy (NSA), which 
had problems from the beginning. These problems, as discussed in a 
previous hearing of this Subcommittee, were the result of a 
misunderstanding of expected goals, and inadequate performance on 
behalf of parties, VR&E services and the contractors.
    PVA still questions the use of contractors to perform the 
individual one-on-one work with veterans. We are concerned that this 
one-on-one work with the veteran is being contracted out in order for 
the trained VA counselor to have time to complete required VA paper 
work. This is what we have been told by veterans familiar with the 
program. If this in fact is true, then this is certainly not the best 
use of the experienced VA counselor. Nonetheless, the VA claims that 
contracting out for services is necessary for VR&E to adequately serve 
all veterans.
    Based on recent discussions with VR&E central office staff, PVA 
believes the contracting process for services is improving. All current 
and future contracting for services involves a clear understanding of 
the responsibilities as defined for both parties. In the future if PVA 
hears of problems with VR&E contracting services, or veterans not being 
served, we will share this information with the Subcommittee.
    One issue that PVA service officers have brought to our attention 
is that every VA office interprets the regulations pertaining to the 
vocational rehabilitation program differently. This fosters 
inconsistent case management and a lack of accountability. Recently a 
spinal cord injured veteran participating in the vocational 
rehabilitation program had problems with punctual attendance for the 
prescribed program at a VA facility. This was due to a physical and 
medical condition related to his injury. The veteran was expelled from 
the program, against the veteran's wishes, because of his late 
arrivals. PVA believes this was a strict interpretation of the 
regulation for participation in the program. The veteran has a serious 
disability, and still wants to work! The VA should work with the 
veteran, not against the veteran.
    VR&E should be more flexible with providing programs for veterans. 
The goal should be employment whenever possible, not just completing a 
prescribed course. This should include educational programs and 
nondegree employment training programs. Moreover, the VA should ensure 
that the training options offered through VR&E are compatible with the 
current 21st Century workplace.
    Congressional funding for the VR&E programs must keep pace with 
veterans' demand for this service. Our veterans have made a sacrifice 
for our Nation, which is why our leaders must make a concerted effort 
to ensure that access to education, employment, and training 
opportunities are available for their transition to the civilian job 
market. There is a need for increased funding for staffing for VR&E 
including the Independent Living (IL) Program. The current counselor to 
client ratios is approximately 120 or 130 veterans to one counselor. 
This unacceptable ratio puts great pressure on the counselor and 
negatively impacts the effort spent with each veteran. The severely 
injured veteran requires more time and attention. With many seriously 
injured servicemembers returning from Iraq and Afghanistan who will 
need this assistance, PVA believes the funding should be increased. 
Veterans should never be discouraged from participating in VR&E. 
Although this keeps the demand for services at a lower level, it is not 
reflective of the current true demand for these services. Increased 
funding for the Independent Living program is a necessity. Many 
veterans that could qualify for the IL program are never informed of 
this option. This keeps the number of new participants to a minimum. 
The current cap on the IL program should be removed immediately. The IL 
program never exceeds the cap, or comes close to that number. The cap 
was placed on IL because it was classified as a pilot program, and the 
cap would allow VA to better monitor and evaluate the program. This 
peacetime cap which received a slight increase recently, is almost 
unimaginable during a period of extended conflict.
    One problem with the VR&E program that the co-authors of The 
Independent Budget discuss in that publication is the 12 year limit on 
eligibility. The disability that a veteran has incurred has no time 
limit on the restrictions that it imposes on the veteran. 
Unfortunately, as time progresses many conditions may worsen and 
increase those limitations caused by the disability. Some new veterans 
of the current conflict are suffering injuries early in their military 
careers. Many by the age of 19 or 20 years old received an injury that 
renders them unable to continue to perform in their service 
occupations. This places the veteran out of the military, unfit for 
employment in the civilian work environment, and dealing with the 
emotional difficulty of their injury and perhaps suffering from Post 
Traumatic Stress Disorder (PTSD). During this time the veteran's 
eligibility is expiring as they try to reevaluate their life. In some 
situations it may take 10 to 15 years before the veteran is ready to 
even consider employment.
    A problem that PVA service officers from various regions of the 
country have reported is that the VA counselors try to persuade the 
veteran not to get involved with vocational rehabilitation. The 
delimitation occurs when the veteran is rated at 50 to 60 percent 
disabled, or greater. If the veteran expresses a desire for 
rehabilitation to perhaps some day become employed, the counselor often 
persuades them that they are too disabled to work and that they should 
resubmit a claim to increase the percentage of disability. With this 
advice coming from the experienced VA counselor most veterans in this 
situation are reluctant to pursue the VR&E program. PVA believes that 
any disabled veteran that has an interest in future employment should 
be encouraged and supported to pursue this interest, not discouraged 
from this option.
    A crucial issue that is discussed in The Independent Budget is the 
lack a subsistence allowance for those attending the VR&E program. 
Although preliminary numbers do not show a large detraction from VR&E 
participants by the new GI Bill, it is obvious that many will not 
select the VR&E, or later dropout of the program to enroll in the GI 
Bill because of the living allowance that is included in that program. 
Congress should enact legislation to authorize a subsistence allowance 
that is equivalent to the allowance in the GI Bill.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, this concludes our written testimony. We will be 
happy to work with this Subcommittee in the future as it continues to 
address the oversight of the VR&E program.

                                 <F-dash>
Statement of Eric A. Hilleman, Director, National Legislative Service, 
             Veterans of Foreign Wars of the United States

    MADAM CHAIRWOMAN, RANKING MEMBER BOOZMAN, AND MEMBERS OF THIS 
COMMITTEE:

    On behalf of the 2.1 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, the VFW would like to 
thank this committee for the opportunity to present its views on this 
very timely issue.
    The VA's Vocational Rehabilitation and Education (VR&E) program is 
first and foremost an employment program. We must consider how a VR&E 
program of the 21st Century will best serve the influx of service-
disabled veterans by preparing them sustainable careers. The current 
economic downturn is creating new challenges for injured veterans and 
to VR&E. We must have career-focused programs that focus on the ever-
changing needs of service-connected disabled veterans.
    Simply put, VR&E needs to be flexible in providing the training 
(and in some cases retraining) and education necessary to allow 
disabled veterans to achieve their short and long-term career goals. 
Conversely, VR&E also needs to be adaptable in assisting disabled 
veterans to overcome the obstacles created by changing job markets--
brought on by corporate downsizing, small business closures and 
economic uncertainty. To be truly effective, the program must be 
focused on a goal of avoiding disability-related unemployment later in 
life.
    This generation of injured veterans is unique in that they survived 
injuries that just a generation ago would have been fatal. Regardless 
of the severity of injury, the VR&E program of the future must adapt to 
their needs, give them every opportunity to succeed both personally and 
professionally, with the highest level of independence possible.
VR&E BRIEF OVERVIEW
    The sole purpose of the Veterans Benefits Administration's VR&E 
program, as authorized under Chapter 31 of 38 U.S.C., is to provide 
comprehensive services to address the employment handicaps of service-
connected disabled veterans in an effort to achieve maximum 
independence in daily living, and to obtain and maintain gainful 
employment. Furthermore, VR&E provides services to severely disabled 
veterans with a focus on helping them achieve the highest quality of 
life possible, including future employment when feasible.
    In 1918, Congress passed the Vocational Rehabilitation Act to 
increase the probability for a seamless transition into suitable 
employment that is consistent with a qualifying veteran's competencies 
and interests through successful rehabilitation. This program was 
administered by the Federal Board for Vocational Education. On August 
24, 1921, VR&E was transferred to the soon-to-be created Department of 
Veterans Affairs. Legislation would later expand VR&E, specifying that 
any eligible veteran may receive up to 4 years of training specifically 
directed to rehabilitation and the restoration of employability.
    VR&E eligibility is based on a veteran being separated with a 
higher than dishonorable discharge rating; have a disability rating of 
10 percent or more; and be in need of vocational rehabilitation to 
overcome employment handicaps caused by such service-connected 
disability. A veteran is eligible for maximum of 48 months of education 
entitlement (any of which may be used in VR&E), and the program must be 
completed within 12 years from the date of disability rating 
notification from VA, with an exception for those with a serious 
employment handicap.
    The process begins when a case manager is assigned to the veteran. 
The case manager works with a Vocational Rehabilitation Counselor (VRC) 
to determine the extent of a disabled veteran's employment handicap(s). 
A rehabilitation plan is developed by the VRC and the veteran outlining 
goals of the VR&E program and the means they will be achieved. The VRC 
and the case manager then help the veteran for up to 18 months through 
ongoing case management to achieve the goals of the agreed upon written 
plan for employment or independent living. Services provided include, 
but are not limited to, referrals for medical and dental services, 
coordination of training allowances, education counseling for children 
and spouses of veterans who have a permanent and total service-
connected disability, testing for aptitude, and tutorial assistance.
    Under the current VR&E program, a veteran whose eligibility and 
entitlement have been established must not only complete the 
rehabilitation plan, but he or she will also be tracked to attainment 
of suitable employment based on the plan's goals. This is called the 
``Five-Track Service Delivery System.'' The five tracks are:

    1.  Re-employment: Helps veterans and members of the National Guard 
and the Reserves return to jobs held prior to active duty.
    2.  Rapid Access to Employment: Emphasizes the goal of immediate 
employment, and is available to those who already have the skills to 
compete in the job market in appropriate occupations.
    3.  Self-Employment: For veterans who have limited access to 
traditional employment, who need flexible work schedules or a more 
accommodating work environment because of their disabling conditions or 
other special circumstances.
    4.  Employment through Long-Term Services. Assists veterans who 
need specialized training or education to obtain and maintain suitable 
employment.
    5.  Independent Living Services. For veterans who may not be able 
to work immediately, and may need additional rehabilitation to enable 
them to live more independently.

    From its inception, VR&E has adapted to better reflect veterans' 
current circumstances. For example, we applaud this Subcommittee for 
increasing the cap on the number of veterans eligible for the 
Independent Living track.
    How ``successful rehabilitation'' is defined has evolved, too. 
Before 1980, completion of a training program for suitable employment 
and not actual job placement was considered a success. This was 
identified as a problem area and has been improved. Furthermore, in 
partnership with the Department of Labor, employers, and other relevant 
federal agencies have made increased employment opportunities for 
program participants. Finally, outreach and early intervention efforts 
have been expanded and integrated into the U.S. Army Wounded Warrior 
Program, the Marine Wounded Warrior Battalion, the Navy's Safe Harbor 
program, and the Air Force Wounded Warrior commands.
VFW's VISION FOR VR&E
    With the advent of the Post-9/11 GI Bill, hundreds of thousands of 
veterans are currently improving their career trajectory though 
education. Their success is a direct result of Congress's decisive 
action to completely overhaul the GI Bill. That same congressional 
attention is needed for other veterans' training and education 
programs.
    The VFW envisions a VR&E for Life program, one that adapts to the 
changing needs of the employment market and the evolving nature of the 
individual veteran's disability. Our Nation's obligation to disabled 
veterans is unparalleled. Our veterans have lifelong injuries and 
disabilities; so, too, should their access be to valuable training and 
education programs that will allow them to achieve higher levels of 
independence, self-confidence and life-long career opportunities.

    <bullet>  Remove the Delimiting Date for VR&E. Currently, the 
delimiting date for VR&E is set to 12 years after military separation 
or 12 years following the date of rating for a service-connected 
disability. Eliminating VR&E's delimiting date would allow veterans to 
access it on a needs basis for the entirety of their employable lives, 
thus allowing retraining when necessary and lifelong access to VR&E 
employment services.
    <bullet>  Increase VR&E's Educational Stipend to Reflect Chapter 
33. Chapter 33 provides a far more equitable living stipend that 
reflects the real world costs. VR&E falls dramatically short of aiding 
veterans with the real costs of living. For this reason, the VFW 
strongly urges Congress to create a cost of living stipend that mirrors 
the Chapter 33 stipend, which reflects the basic allowance for housing 
of an E-5 with dependents rate, based on zip code.
    <bullet>  Additional Assistance for Veterans with Dependents under 
VR&E. The VR&E educational track provides insufficient support for many 
veterans with dependents. Many seriously disabled veterans are unable 
to pursue education or training options due to limited resources and 
the immediate need to support their families. The VFW calls on Congress 
to create a viable VR&E program to provide childcare services to those 
veterans pursuing education and training.
    <bullet>  Jump Start VR&E Enrollment. It can take months from the 
date a veteran files for services under VR&E until he or she enters 
into a training or education program. This is because VR&E requires 
validation of entitlement, skill and interest assessment of the 
veteran, and then authorization of the training or education program. 
The VFW believes entrance into training or education should be implicit 
once a veteran is deemed eligible. The skill and interest assessment 
should serve solely to help a veteran better focus their efforts, not 
as a pre-qualifier.
    <bullet>  Measure Veterans Long-Term Employment Under VR&E. 
Currently, the measure of success is the number of veterans gainfully 
employed for a period of 60 days after completing a VR&E program. Such 
a short-term measurement limits the VR&E program to short-term goals 
instead of properly helping disabled veterans succeed for life. The VFW 
urges Congress to redefine the VR&E program's goals to focus on the 
long-term. It should be tracked if a disabled veteran becomes 
unemployed at any point over their career. If the measure of success 
was based on long-term employability, then VR&E placement officials 
will give more credence to career options vice 60 days of employment.

    Madam Chairwoman, this concludes my testimony. I will be pleased to 
respond to any questions you or the members of your committee may have. 
Thank you.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                       May 13, 2010

Ms. Ruth Fanning
Director, Vocational Rehabilitation and Employment Service
Veteran Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Ms. Fanning:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Status of Vocational Rehabilitation and Employment Programs on May 6, 
2010. Please answer the enclosed hearing questions by no later than 
Friday, June 25, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-5491.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot

                               __________

                        Questions for the Record
                       Chairwoman Herseth Sandlin
   U.S. House of Representatives Subcommittee on Economic Opportunity
                   Hearing on Status of VR&E Programs
                              May 6, 2010

    Question 1: What are some of the lessons learned from the last 
National Acquisition Strategy?

    Response: The following bullets outline lessons learned from the 
last National Acquisition Strategy (NAS). Many of these lessons have 
been incorporated into the new VetSuccess Contracts:

    <bullet>  The NAS emphasized using as few contracts as possible. 
This resulted in many teaming arrangements and small companies 
partnering with subcontractors--in some cases, multiple subcontractors. 
This strategy drove prices up and added administrative burden for both 
VA and the contractors. In addition, it failed to fully value vendors 
in the labor market with knowledge of local resources of the geographic 
area to be served. Further, it required VA's Contracting Officer and 
Vocational Rehabilitation and Employment (VR&E) Divisions to deal 
directly with prime contractors to resolve problems with subcontractor 
work, often adding significant complexity when the prime was not 
familiar with the particular Veteran(s) cases or the prime was not 
responsive to working with VA to resolve issues. This issue has been 
corrected, and new awards will be made at the regional office level.
    <bullet>  When the contracts were designed, a decision was made to 
link minimum values to specific service packages, rather than a total 
dollar value. This reduced the flexibility of offices to use contract 
services based on need. In addition, minimum quantities were 
overestimated, forcing VA in some regions to contract beyond necessary 
quantities and creating the need to shift resources to maintain 
efficiency. This issue has been corrected by conducting a structured 
and thorough analysis of contract needs in each region.
    <bullet>  During the initial evaluation and award phase, the 
communication between the Office of Acquisition, Logistics, and 
Construction (OALC) and the program office was flawed and resulted in 
pricing issues not being properly identified. During the recompetition, 
the information will be shared to ensure comprehensive evaluations are 
conducted and potential issues readily identified.
    <bullet>  Because the NAS encouraged teaming and subcontracting, 
some vendors overextended their small companies to cover large regions 
of the country. They had difficulty recruiting subcontractors and had 
widespread timeliness and quality problems. In many cases, they refused 
referrals, returning them weeks or months after referral. It appears 
that these companies, although well intentioned, overextended 
themselves, with the result being poor service to Veterans and an 
inordinate amount of VA time spent attempting to resolve performance 
problems. VA has resolved this issue by requiring vendors to identify 
professional office locations and staff pre-award. In addition, VA 
plans to award no more than three contracts to any one vendor; however 
VA reserves the right to do so if technical and past performance 
ratings indicate the capability of vendors to perform well.
    <bullet>  During the NAS contracts, vendors complained of 
nonpayment of deliverables when reports and bills were submitted, but 
deliverables were not acceptable. This is corrected in the new contract 
by implementing procedures that require VA to conduct quality reviews 
of deliverables and accept or reject deliverables (with cause). 
Invoicing may not occur until deliverables have been accepted.
    <bullet>  Although extensive training was provided pre-performance, 
some vendors complained of variance in referral formats, report 
templates, and quality review processes. All of these processes have 
been standardized in the new contracts.
    <bullet>  One contracting officer, who was replaced immediately 
following an award, oversaw the NAS contracts. This created a huge 
burden on one individual to deal with widespread contractor performance 
problems and respond to the needs of numerous Contracting Officer 
Technical Representatives and field contracting specialists. The new 
contracts are administered by a team of contracting officers and field 
contracting specialists, who will be delegated administrative 
contracting officer duties and can more timely resolve basic contractor 
performance issues.
    <bullet>  Some vendors complained that VA's invoicing system is not 
automated. VA is working with the Austin Administrative and Loan 
Accounting Center (ALAC) to develop an automated referral and invoicing 
system that will allow vendors to view the status of billing and 
provide VA with enhanced reporting and tracking of obligations, 
expenditures, and invoices.

    Question 2: Of the five Vocational Rehabilitation and Employment 
program tracks, can you share with us the average number of days 
veterans spend per track and the rehabilitation rate?

    Response: The number of Veterans rehabilitated as employed this 
fiscal year to date is 5,826. Of that number, 1,162 are independent 
living cases. The national rehabilitation rate is 76.6 percent, which 
exceeds the target goal of 76 percent. The national employment 
rehabilitation rate is 73.3 percent, approaching the target goal of 75 
percent. The national independent living rehabilitation rate is 93.4 
percent, exceeding the target goal of 92 percent.
    Since a Veteran can navigate through multiple tracks during his/her 
rehabilitation plan, the rehabilitation rate is calculated based on the 
type of rehabilitation plan a Veteran completes, not the track(s) 
selected by the Veteran. Timeliness from when the Veteran signs a 
rehabilitation plan to successful completion of the plan of service is 
tracked; however, only current track selection is tracked due to the 
fluidity of the selection process. The 5-Tracks to Employment model was 
designed to re-emphasize the employment focus of the VR&E program and 
not as a performance tool. The method for tracking timeliness and 
rehabilitation rate is measured based on the type of plan of services 
the Veteran completes.
    The 5-Tracks of Employment model was implemented as a strategy to 
enhance the program's clarity for Veterans and re-emphasize the 
program's focus on employment. The language of the 5-Tracks of 
Employment model is Veteran-friendly and helps to describe the types of 
services the VR&E program provides more clearly for all stakeholders. 
Each plan of service is individualized to meet the needs of each 
Veteran, and the tracks of services are fluid and move within plans of 
service.
    Track selection occurs within three types of rehabilitation plans: 
Individualized Written Rehabilitation Plan, Independent Living Plan, 
and Employment Assistance Plan. The table below illustrates the 5-
tracks and how they fit within the 3 types of plans.

------------------------------------------------------------------------
                      5-Tracks to Employment Model
-------------------------------------------------------------------------
                        Employment
   VR&E        Re-       Through       Self-     Independent     Rapid
 Service   employment   Long-term   Employment     Living      Access to
                         Services                             Employment
------------------------------------------------------------------------
           IWRP        IWRP         IWRP        IILP          IEAP
          --------------------------------------------------------------
           IEAP        IEAP         IEAP
------------------------------------------------------------------------
Plan of
Services


    The Employment Track a Veteran begins may change during the life of 
his or her program; therefore, tracking timeliness amongst tracks does 
not illustrate the amount of time it takes to successfully complete a 
plan of services. Successful completion of VR&E services is measured 
based on the plan of services entered and timeliness is tracked per 
plan of services rather than track selection.
Length of time to complete plan of services:

    <bullet>  Individualized Written Rehabilitation Plan (IWRP)

        <bullet>  FY 2009 Average Days to Rehabilitation: 1,094 (2.9 
        years)
        <bullet>  FY 2010 to date Average Days to Rehabilitation: 1,085 
        (2.9 years)*

    <bullet>  Individualized Independent Living Plan (IILP)

        <bullet>  FY 2009 Average Days to Rehabilitation: 398
        <bullet>  FY 2010 to date Average Days to Rehabilitation: 402*

    <bullet>  Individualized Employment Assistance Plan (IEAP)

        <bullet>  FY 2009 Average Days to Rehabilitation: 315
        <bullet>  FY 2010 to date Average Days to Rehabilitation: 267*

* FY 2010 data are through May 24, 2010

    The below table provides additional information about the types of 
programs completed by Veterans who were successfully rehabilitated in 
FY 2009.

------------------------------------------------------------------------
  Veterans Successfully Rehabilitated  Pre and Post Annual Earnings by
                 Occupational Category Fiscal Year 2009
-------------------------------------------------------------------------
                                          Average Annual
                                          Wages Prior to  Average Annual
     Types of Programs          Total      VR&E Program      Wages at
                                             Entrance     Rehabilitation------------------------------------------------------------------------
Professional, Technical,       6,232       $7,522.27       $36,598.17
 and Managerial
------------------------------------------------------------------------
Clerical                         561       $5,238.31       $27,849.01
------------------------------------------------------------------------
Service                          409       $5,757.86       $27,850.27
------------------------------------------------------------------------
Miscellaneous                    300       $6,100.04       $31,384.80
------------------------------------------------------------------------
Machine Trades                   253       $7,309.09       $30,712.41
------------------------------------------------------------------------
Structural (Building             195       $9,631.57       $33,249.72
 Trades)
------------------------------------------------------------------------
Sales                            164       $5,022.51       $28,657.39
------------------------------------------------------------------------
Benchwork                         47       $5,114.04       $27,653.11
------------------------------------------------------------------------
Processing (Butcher, Meat         20       $5,896.80       $35,064.00
 Processor, etc.)
------------------------------------------------------------------------
Agricultural, Fishery, and        32       $6,532.50       $21,217.13
 Forestry
------------------------------------------------------------------------
Total                          8,213       $5,664.44 Avg   $32,374.60 Avg
------------------------------------------------------------------------


    Question 3: What is the average amount of time spent by a Veteran 
in an IL program and what is the maximum amount of time a Veteran can 
be in the program?

    Response: As of May 24, 2010, the average number of days a Veteran 
spends pursuing a plan of independent living (IL) services is 402 days. 
The length of time a Veteran spends in IL status varies depending on 
severity of disability and type of services needed. An IL plan of 
services can be written to cover a period of 24 months; however, 
extensions of 6-month intervals can be granted upon approval of the 
regional office VR&E Officer and Vocational Rehabilitation Panel. A 
Veteran receiving over 36 months of independent living services must 
have served on active duty during Post 9/11 Global Operations and have 
a severe disability incurred or aggravated in such service.

    Question 4: How is veterans' enrollment into the Vocational 
Rehabilitation and Employment program being streamlined?

    Response: VR&E is undertaking a business process re-engineering 
(BPR) initiative that focuses on streamlining initial-evaluation and 
case-management processes. The goal is to replace manual processes with 
more automated processes that will increase efficiency and improve 
service delivery. This includes corporate database enhancements. The 
initial BPR will focus on the following areas:

    <bullet>  Forms improvement and consolidation
    <bullet>  Updated quality standards
    <bullet>  Professional and administrative role analysis and 
redesign
    <bullet>  Caseload and staffing analysis
    <bullet>  Knowledge management portal
    <bullet>  Technology enhancements

        <bullet>  Remote case-management requirements and protocols
        <bullet>  Online appointment scheduling and automated 
        confirmation of appointments

    <bullet>  Case-management portal requirements (business rules for 
paperless processing)

    A BPR exercise will be conducted with our national managers at the 
VR&E Workload Management and Leadership Training Conference the week of 
July 12, 2010. This exercise will focus on identifying other short and 
long-term strategies to simplify the program for Veterans and 
streamline administrative processing for VR&E staff. Initial progress 
on streamlining the administrative processing will occur during the 4th 
quarter of FY 2010.

    Question 5: (a) What does the Independent Living Program's 
rehabilitative plan process consist of? (b) Veterans are concerned that 
they have waited several months to receive a finalized rehabilitative 
plan. Why does the rehabilitative plan process take several months to 
finalize? (c) How is the rehabilitative plan process being streamlined?

    Response (a): Each Independent Living (IL) rehabilitation plan is 
individually tailored to meet the Veteran's needs. The complexity of 
the plan of services varies depending on the severity of disability, 
extent of coordination of services with other VA and non-VA programs, 
and participation of the Veteran. Prior to finalizing an IL plan of 
services, the Veteran must complete the evaluation and planning process 
like any other Veteran applying for VR&E services. During that period, 
the feasibility of pursuing a vocational goal must be determined. If 
the counselor determines that an employment goal is not feasible, an 
analysis of independent living needs is completed.
    This analysis of IL needs begins with a preliminary assessment, 
completed by the counselor. If it is determined that the achievement of 
appropriate IL goals is not feasible, or potential IL needs cannot be 
identified, the VR&E Officer must concur with this decision. When 
potential IL needs are found, the next steps is the completion of a 
comprehensive assessment of specific IL needs. A staff member or 
provider with specialized IL experience and/or training performs this 
assessment.
    The assessment of IL needs and the coordination of services to 
address them often require the counselor to work closely with the 
Veterans Health Administration (VHA) and other health-care providers. 
This coordination and consultation ensures that available VHA resources 
are utilized and that the Individualized Independent Living Plan 
includes services within and outside the VA system to effectively 
address IL needs. The VR&E Officer must concur with all Independent 
Living plans.
    The steps involved in the Chapter 31 process are as follows:

    Step 1: Application

    <bullet>  Application received (VONAP or 28-1900)
    <bullet>  Veteran's eligibility established
    <bullet>  Schedule Veteran for initial counseling appointment if 
eligible

    Step 2: Entitlement Decision

    <bullet>  Vocational Rehabilitation Counselor (VRC) meets with 
Veteran
    <bullet>  Conduct VR&E orientation to include Orientation Video
    <bullet>  Conduct vocational evaluation to assess skills, abilities 
and interests
    <bullet>  Determine employment handicap (VR&E entitlement criteria) 
and serious employment handicap
    <bullet>  Determine feasibility for employment

    Step 3: Evaluation and Planning

    <bullet>  Work with veteran to identify track

        <bullet>  Re-Employment
        <bullet>  Rapid Access to Employment
        <bullet>  Self Employment (monitor 1 year minimum)
        <bullet>  Employment Thru Long-Term Services
        <bullet>  Independent Living (24 month maximum with 6 month 
        extension by VR&E Officer)

    <bullet>  Establish vocational or independent living goal
    <bullet>  Define services needed
    <bullet>  Develop written plan of services

    Step 4: Service Delivery

    <bullet>  On-going case management
    <bullet>  Provide necessary services as identified in the 
rehabilitation plan

    Step 5: Rehabilitated

    <bullet>  Held suitable employment or improved ability to live 
independently

    Response (b): The evaluation and planning process can be complex 
depending on the Veteran's needs; however, the VA counselor expedites 
this process as much as possible since Veterans with IL needs are among 
the most severely disabled. The chart below provides the average number 
of days elapsed for Veterans to move from evaluation/planning case 
status to independent living case status compared to the time for all 
plans.
IL Plans:

------------------------------------------------------------------------
                   2009                                 2010
------------------------------------------------------------------------
147 days..................................  159 days
------------------------------------------------------------------------

All Plans:

------------------------------------------------------------------------
                   2009                                 2010
------------------------------------------------------------------------
102 days..................................  110 days
------------------------------------------------------------------------


    Response (c): For independent living plans, the business process 
reengineering (BPR) initiative focuses on the initial evaluation 
process that includes form consolidation and electronic submission of 
the medical referral form for VHA medical appointments and 
recommendations of medical equipment.

    The full BPR effort described in the responses to question 4 is 
expected to benefit Veterans found infeasible for employment and in 
need of independent living services. As always, VR&E will also continue 
to incorporate IL services into employment plans when needed.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
